( (
                         -- "- .    ,.    \ '



 '''VICE



                  DEPARTMENT OF HEALTH &. HUMAN SERVICES	                                     Office of Inspector General

J-V"JO	                                                                                       Washington , D. C.   20201




                                                        MAY   - 2 2006

           TO:	               Edwin L. Walker

                              Deputy Assistant Secretary for Policy and Programs

                              Administration on Aging


           FROM:              Stuart E. Wright

                              Deputy Inspector General

                                for Evaluation and Inspections


           SUBJECT:	          Performance Data for the Senior Medicare Patrol Projects: April 2006
                              Performance Report , OEI- 02-04- 00363

           The Office of Inspector General (DIG) has collected performance data from the Senior
           Medicare Patrol Projects since 1997. The Administration on Aging (AoA) recently requested
           that OIG continue to collect and report on the performance data ofthe Senior Medicare Patrol
           Projects to support AoA' s efforts to evaluate and improve the performance of these projects.
           The Senior Medicare Patrol Projects receive grants from AoA to recruit retired professionals to
           serve as educators and resources in assisting beneficiaries to detect and report fraud , waste , and
           abuse in the Medicare program. At least 1 project is located in each of 49 States , as well as the
           District of Columbia , Puerto Rico , Guam , and the Virgin Islands. Curently, there is no project
           operating in Alabama.

           In the 6 months from July through December 2005 , a total of 64 projects educated 290 532
           beneficiaries in 96 257 group training sessions and one-on-one sessions. As a result of
           educating beneficiaries , the projects received 16 001 complaints , of which 636 were referred to
           Medicare contractors for followup. A total of 393 complaints resulted in money recouped
           the Medicare program or some other action taken by a Medicare contractor or investigative
           agency. In total , the projects documented $102 868 recouped to the Medicare program. The
           projects also reported $59 324 in savings to beneficiaries. In all ofthese cases , the projects
           provided descriptions of out-of-pocket expenses being retued to beneficiaries and savings
           due to resolution of biling errors. Additionally, one project's referral led to the removal of
           11 providers from the Medicare program.

           OIG issued two reports in 1999 on the projects ' first- and second- year performance data
           (OEI- 02-97- 00522 and OEI- 02- 97- 00523). DIG has since released reports on these
           performance data for each subsequent 6-month period. Since the inception ofthe program
           8 years ago , a total of71 projects (7 of which c10sedbetween June 2002 and June 2005) have
           educated approximately 2. 5 milion beneficiaries in 695 634 group training sessions and
           one-on-one sessions. As a result of educating beneficiaries , the projects received 75 049
           complaints , of which 5 116 resulted in some action. Total savings to the Medicare program
           attributable to the projects were $4 087,421. Self-reported savings to beneficiaries , Medicaid
           and other payers were approximately $100 millon. Most of the $100 milion in savings is the
Page 2 – Edwin L. Walker

result of one project’s involvement in adjustments to Medicaid claims for individuals entitled
to both Medicaid and Medicare. The appendixes contain more information on the performance
of each project.

We continue to emphasize that the number of beneficiaries who have learned from the Senior
Medicare Patrol Projects to detect fraud, waste, and abuse, and who subsequently call the OIG
fraud hotline or other contacts, cannot be tracked. Therefore, the projects may not be receiving
full credit for savings attributable to their work. In addition, substantial savings, which cannot
be tracked, may be derived from a sentinel effect whereby fraud and errors are reduced in light
of Medicare beneficiaries’ scrutiny of their bills.

In 2001, the Centers for Medicare & Medicaid Services (CMS) developed a tracking system
that requires each contractor to provide semiannual reports of all complaints initiated by the
Senior Medicare Patrol Projects. We asked each project director to submit all tracking reports
and correspondence that they received from a Medicare contractor, regardless of whether
actual savings occurred. In the current reporting period, 18 of the 64 projects submitted a total
of 23 forms of documentation. Sixteen of these 18 projects submitted at least 1 tracking
system report; the other 2 projects submitted information from a contractor. Ten of the
tracking reports documented actual savings to the Medicare program. In addition, CMS sent us
another four tracking system reports that the contractors had not sent to the individual projects;
these reports collectively documented an additional $6,112 in savings.

As agreed with AoA, we will continue to monitor the projects and will provide you with
summary reports of performance data on an annual basis. If you have any questions, please
call me at (202) 619-0480, or you may contact Jodi Nudelman, Regional Inspector General for
Evaluation and Inspections, New York Region, at (212) 264-2000.


ATTACHMENTS:
Appendix A - Summary of Performance for All Projects Since 1997
Appendix B - Summary of Performance for All Projects for 2005
Appendix C - Projects’ Results for Each Performance Measure for 2005
Appendix D - Individual Project Results for 2005
    Senior Medicare Patrol Projects’ Performance Measure Results 




List of Appendixes

Appendix A: Summary of Performance for All Projects Since 1997………………………………...4 


Appendix B: Summary of Performance for All Projects for 2005………………………….……......6 


Appendix C: Projects’ Results for Each Performance Measure for 2005……………...…………….8 


Appendix D: Individual Project Results for 2005………………………………………………..…. 26





                                                                                       3
   Δ        A P P E N D I X               ~     A


                          Summary of Performance for All Projects Since 1997
The following table provides the overall performance measure results for all 71 projects that have operated since 1997. 


Cumulative totals since 1997 are no longer reported for Performance Measure 9. 


Total savings to Medicaid, beneficiaries, and other entities were not broken out prior to July 2003. Therefore, the following table does 

not contain data for performance measures 15A, 15B, and 15C.





                                                                                                                                 4
A P P E N D    I X       ~     A 



                                Summary of Performance for All Projects Since 1997
                                            OUTPUT MEASURES

    1       Number of training sessions conducted to train new volunteers                             9,165
    2       Number of new volunteers trained                                                        58,473
    3       Number of media events conducted                                                       149,536
    4       Number of community education events conducted                                          40,094
                                           OUTCOME MEASURES
            Number of volunteers who, for the first time, conducted activities to educate
    5       beneficiaries                                                                           22,248
    6       Number of group sessions for beneficiaries led by volunteers                            47,818
    7       Number of beneficiaries who attended group sessions led by volunteers                 1,828,827
    8       Number of one-on-one sessions held between beneficiaries and volunteers                647,816
   7+8      Total number of beneficiaries educated                                                2,476,643
    9       Estimated number of people reached by media events                                          NA
    10      Estimated number of people reached by community education events                     16,366,272
    11      Number of complaints received attributable to the project                               75,049
    12      Number of complaints referred for followup                                              10,511
    13      Number of complaints that resulted in some action                                         5,116
    14      Medicare funds recovered attributable to the project                                  4,087,421
   15A      Medicaid funds recovered attributable to the project                                        NA
   15B      Savings to beneficiaries attributable to the project                                        NA
   15C      Other savings attributable to the project                                                   NA
 TOTAL 15   Total Medicaid funds, beneficiary savings, and other savings                        100,414,095
  14 + 15   Total savings attributable to the project                                           104,501,516




                                                                                            5
   Δ        A AP PP PE EN ND DI IX X ~ ~ B B


                            Summary of Performance for All Projects for 2005
The following table provides data for the 66 projects that operated in 2005. 


Two projects operated by the Alabama Commission on Aging and the Central Ohio Area Agency on Aging closed in June 2005. 





                                                                                                                     6
A P P E N D       I X      ~     B 




                                   Summary of Performance of All Projects for 2005
                                                                                           January - June    July - December   Total for 2005
                                        OUTPUT MEASURES

   1       Number of training sessions conducted to train new volunteers                               795             1,032              1,827
   2       Number of new volunteers trained                                                          3,715             6,407             10,122
   3       Number of media events conducted                                                         20,786            11,633             32,419
   4       Number of community education events conducted                                            3,716             6,949             10,665
                                      OUTCOME MEASURES

   5       Number of volunteers who, for the first time, conducted activities to educate
           beneficiaries                                                                             1,058             2,891               3,949
    6      Number of group sessions for beneficiaries led by volunteers                              3,378             5,683               9,061
    7      Number of beneficiaries who attended group sessions led by volunteers                   132,040           199,958             331,998
    8      Number of one-on-one sessions held between beneficiaries and volunteers                  60,860            90,574             151,434
  7+8      Total number of beneficiaries educated                                                  192,900           290,532             483,432
    9      Estimated number of people reached by media events                                   57,550,356        60,579,950         118,130,306
   10      Estimated number of people reached by community education events                        384,427           823,676           1,208,103
   11      Number of complaints received attributable to the project                                11,963            16,001              27,964
   12      Number of complaints referred for followup                                                  408               636               1,044
   13      Number of complaints that resulted in some action                                           358               393                 751
   14      Medicare funds recovered attributable to the project                                    $83,190         $102,868            $186,058
  15A      Medicaid funds recovered attributable to the project                                         $0            $1,499              $1,499
  15B      Savings to beneficiaries attributable to the project                                    $44,497           $59,324           $103,822
  15C      Other savings attributable to the project                                                    $0               $10                 $10
TOTAL 15   Total Medicaid funds, beneficiary savings, and other savings                            $44,497           $60,833           $105,331
 14 + 15   Total savings attributable to the project                                             $127,687          $163,702            $291,389




                                                                                                                                 7
   Δ       A P P E N D I X               ~     C


                      Projects’ Results for Each Performance Measure for 2005
The following tables provide the results for each performance measure for each of the 66 Senior Medicare Patrol Projects operating
in 2005.

Please note that Performance Measure 9, “Estimated number of people reached by media events,” is calculated by adding the average
number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.

Two projects operated by the Alabama Commission on Aging and the Central Ohio Area Agency on Aging closed in June 2005.




                                                                                                                              8
A P P E N D        I X        ~   C 



                     PERFORMANCE MEASURE 1: Number of Training Sessions Conducted to Train New Volunteers
                                  Jan. – June    July – Dec.   Total for 2005                           Jan. – June   July – Dec.       Total for 2005
Alabama                                      7             0                 7   Nevada                           1             0                     1
Alaska                                       5            16                21   New Hampshire                    3             9                    12
Arizona - DES                               15            29                44   New Jersey - JFVS                0             2                     2
Arizona - ITZA                               0             0                 0   New Jersey - DHP                 0             5                     5
Arkansas                                     4             6                10   New Mexico                      34            48                    82
California                                  22             2                24   New York                        41            79                   120
Colorado                                     4             3                 7   North Carolina - DOA             4             6                    10
Connecticut                                  5            14                19   North Dakota                     2             2                     4
Delaware                                     2             2                 4   Ohio - COAAA                     0             0                     0
District of Columbia - AARP                  2             0                 2   Ohio - PSI                       0             1                     1
District of Columbia - FH                    5             5                10   Oklahoma                         1             1                     2
Florida                                      2             1                 3   Oregon - SMP                    22            91                   113
Georgia - ARC                                0             3                 3   Oregon - MULTI                   0             1                     1
Georgia - DHR                               28            25                53   Pennsylvania                     2             2                     4
Guam                                         0             1                 1   Puerto Rico                      3             0                     3
Hawaii                                       4             4                 8   Rhode Island                     0             0                     0
Idaho                                       10            56                66   South Carolina                   4             1                     5
Illinois                                    18            19                37   South Dakota                     0             1                     1
Indiana                                     22            10                32   Tennessee                        5            20                    25
Iowa                                        12            10                22   Texas - BBBEF                    1            26                    27
Kansas                                       0             0                 0   Texas - NHCOA                    9            95                   104
Kentucky                                    12            10                22   Texas - LEP                      0            13                    13
Louisiana                                    3             1                 4   Utah                            48            46                    94
Maine                                        9            20                29   Vermont                          2             4                     6
Maryland                                    25            48                73   Virginia - AAA                   1             0                     1
Massachusetts                                2             5                 7   Virginia - BPSOS                 0             2                     2
Michigan - AAA                              11            83                94   Virgin Islands                   0             0                     0
Michigan - MCOP                              0             1                 1   Washington - IC                214           138                   352
Minnesota                                  132            15               147   Washington - MSC                 0             1                     1
Mississippi                                  6            22                28   West Virginia - AARP             2             1                     3
Missouri                                     4             1                 5   Wisconsin - CWAG                 5             2                     7
Montana                                      5            12                17   Wisconsin - GLITC                2             2                     4
Nebraska                                    12             5                17   Wyoming                          1             4                     5

                                                                                                                                    9
A P P E N D        I X        ~    C 



                                         PERFORMANCE MEASURE 2: Number of New Volunteers Trained
                                  Jan. – June      July – Dec.    Total for 2005
                                            Jan. – June              July – Dec.        Total for 2005

Alabama                                     51                0                   
51      Nevada                                 
              2
             0                     2
Alaska                                      30              133                 163
       New Hampshire  
                            
        32
            33 
                  65 

Arizona - DES                               33 
             38 
                  71 
    New Jersey - JFVS                                     0              9
                    9

Arizona - ITZA                               0                0                       0    New Jersey - DHP                                      0              7
                    7

Arkansas                                    45               17                 
 62       New Mexico  
                        
              100
           100 
                 200 

California                                 357               19              
 376         New York  
                       
                 698
           650 
               1,348
Colorado                                    19               17                  
36       North Carolina
                                                                                                        
        - DOA           
             109
            12 
                 121 

Connecticut                                 16               83             
 99           North Dakota
                                                                                                   
                       
                     4
            12 
                  16 

Delaware                                     4                3
                    
 7
   Ohio - COAAA                                          0              0                     0
District of Columbia - AARP                  7
               0                       7
   Ohio - PSI                                            0              6
                    6

District of Columbia - FH                    6
               7
                   13 
    Oklahoma                                             10
            26                    36
Florida                                      8                7
                   15 
    Oregon - SMP                                   
 128
              457 
                 585 

Georgia - ARC                                0                5
                      5
   Oregon - MULTI                                        0             25 
                  25 

Georgia - DHR                              118 
             38 
               156 
      Pennsylvania                                         11
             5
                   16
Guam                                         0                1
                      1
   Puerto Rico                                           3
             0                     3

Hawaii                                       5               11                    16 
    Rhode Island 
                                  
     0              0                     0
Idaho                                       23              164                 187 
      South Carolina    
                            
      4
             3
                    7

Illinois                                    56               82                 138
       South Dakota
                                
        0             17 
                  17 

Indiana                                    107              440                 547
       Tennessee
                              
            46
           115                   161
Iowa                                        14               19                    33 
    Texas - BBBEF       
                             
 12
            830 
                 842 

Kansas                                       0                0                       0    Texas - NHCOA                                       128
           133 
                 261 

Kentucky                                    45               10                  
 55      Texas - LEP  
                        
               0            126 
                 126 

Louisiana                                   95               23                 118
                                                                                
          Utah        
                        
              212
           205                   417
Maine                                       17              100                 117
       Vermont          
                            
      19
            18                    37
Maryland                                   456              572             1,028
                                                                              
            Virginia -
 AAA                                       3
             0                     3

Massachusetts                               18               55          
         73      Virginia
                                                                                               
     - BPSOS           
                         0             10 
                  10 

Michigan - AAA                             226 
            927 
           1,153          Virgin Islands                                        0              0                     0
Michigan - MCOP                              0                7
                      7
   Washington - IC                                      69
           247 
                 316 

Minnesota                                   91              219               
310         Washington 
 - MSC                 
                  0             68 
                  68 

Mississippi                                 19               26              
 45          West Virginia
                                                                                                     
        - AARP         
                  14
             7
                   21 

Missouri                                    32                5
                   37
                                                                                   
       Wisconsin - CWAG                        
            96
           100 
                 196 

Montana                                      5               58                    63
     Wisconsin -
 GLITC                        
          25
            39 
                  64 

Nebraska                                    50               16                 
 66       Wyoming 
                            
               37
            45                    82

                                                                                                                                                                    10          

A P P E N D        I X        ~     C 



                                          PERFORMANCE MEASURE 3: Number of Media Events Conducted
                                  Jan. – June      July – Dec.      Total for 2005
                                      Jan. – June      July – Dec.          Total for 2005

Alabama                                    136                0               
 136
        Nevada                                  8                   
0                     8
Alaska                                       1               12                      13

                                                                                       
    New Hampshire   
                       6
               15 
                   21 

Arizona - DES                               14 
             11 
                    25
    New Jersey - JFVS                       4
                 85 
                   89 

Arizona - ITZA                               0                0                        0    New Jersey - DHP                        0                   8
                     8

Arkansas                                    19               16                
 35
        New Mexico
                                                                                                     
                             12                 2
                                                                                                                                                      
5                     3
                                                                                                                                                                             
7
California                                  36               16                
 52
        New York 
                             26                  1
                                                                                                                                                       
8                     4
                                                                                                                                                                              
4
Colorado                                     6               15                    
 21
    North Carolina
                                                                                                        
        - DOA             16 
                 7
                  23 

Connecticut                                 17               90             
 107
          North
 Dakota                          17                
32                    
49
Delaware                                     5                4
                  
 9
      Ohio - COAAA                          130 
                 0                  130 

District of Columbia - AARP                  0                0                        0    Ohio - PSI                            462 
             165 
                  627 

District of Columbia - FH                    3
               2
                       5
   Oklahoma                                0                   1
                     1

Florida                                      5                5
                     10

                                                                                       
    Oregon - SMP                            7
              157 
                  164 

Georgia - ARC                               31 
              5
                     36
    Oregon - MULTI                          0                   5
                     5

Georgia - DHR                               78 
             37 
                  115
     Pennsylvania                           15                    9
       
          24
Guam                                         0                3
                       3
   Puerto Rico                             3
                  2
                     5

Hawaii                                       5                8
                     13

                                                                                       
    Rhode Island                        1,480            1,345                   2,825
Idaho                                       29              115                    144

    South Carolina  
                      16                 
39                    
55
Illinois                                    93               43                    136

                                                                                     
      South Dakota  
                     3,070                   8
               3,078
Indiana                                      6               15                      21

                                                                                     
      Tennessee
                             67                 59            
      126
Iowa                                     2,095            3,071                5,166        Texas - BBBEF                           4
                   6
                   10 

Kansas                                       4                0                      
 4
   Texas - NHCOA                          25            
3,027                  3,052
Kentucky                                    97               97                 
 194
      Texas - 
LEP                            0                    9
                    9

Louisiana                                   44               27                
 71
        Utah 
                                 14                 4
                                                                                                                                                      
3                     5
                                                                                                                                                                             
7
Maine                                       94               95                    189

                                                                                     
      Vermont 
                              36                    8
            
     44
Maryland                                    38               94                 
 132
      Virginia 
- AAA                        34 
               37 
                   71 

Massachusetts                              179              360        
           539
     Virginia
                                                                                             
        - BPSOS                       0                   5
                     5

Michigan - AAA                               3
               5
                       8
   Virgin Islands                          0                   0                      0
Michigan - MCOP                              0                5
                       5
   Washington - IC                       125 
             379 
                  504 

Minnesota                                    0               17                      17
    Washington
       - MSC                 0                    1
                    1

Mississippi                              1,009            1,393                2,402        West Virginia - AARP                   27 
               20 
                   47 

Missouri                                     8                7
                    
15
    Wisconsin - CWAG                    6,091               232 
                6,323
Montana                                  5,001              269                5,270        Wisconsin
                                                                                                  
       - GLITC                   9
                 19 
                   28 

Nebraska                                    23               15                
 38
        Wyoming  
                              3
                 15                     18

                                                                                                                                                              11        

A P P E N D        I X        ~     C 



                              PERFORMANCE MEASURE 4: Number of Community Education Events Conducted
                                  Jan. – June     July – Dec.     Total for 2005
                                           Jan. – June          July – Dec.      Total for 2005

Alabama                                   279                0                
 279           Nevada                     
                 35
             0                  35
Alaska                                      5               17
                       22 
    New Hampshire                           
    32
           102 
               134 

Arizona - DES                              24 
            109
                    133 
      New Jersey - JFVS                            39
            40 
                79 

Arizona - ITZA                              0                0                           0    New Jersey - DHP                              0             22 
                22 

Arkansas                                   42               84
                
 126          New Mexico                   
               10
           161 
               171 

California                                176              151
             
 327             New York                 
                   41
            98 
               139 

Colorado                                   17              589
                 
 606         North Carolina - DOA          
              60
            31 
                91 

Connecticut                                40              624
           
        664        North Dakota           
                     15
            18 
                33 

Delaware                                   13               18
                
 31           Ohio - COAAA                 
               50
             0                  50 

District of Columbia - AARP                10 
              3
                       13 
    Ohio - PSI                                   25
            27 
                52 

District of Columbia - FH                  19 
              8
                       27 
    Oklahoma                                      6
            21                  27
Florida                                    65               16
                      
81      Oregon - SMP                        
        89
           282 
               371 

Georgia - ARC                               3
              60
                       63 
    Oregon - MULTI                                0              5
                  5

Georgia - DHR                             207 
            428
                    635 
      Pennsylvania                                 17
             9
                 26
Guam                                        0                9
                          9
   Puerto Rico                                  34
            13 
                47 

Hawaii                                      6               21
                       27 
    Rhode Island                            
    12
             5
                 17 

Idaho                                     127              335
                    462
                                                                                     
        South Carolina                      
       104
           161 
               265 

Illinois                                  143              187
                    330
                                                                                   
          South Dakota                      
           9
            22 
                31 

Indiana                                    93              108
                    201
                                                                                   
          Tennessee                         
         159
           205                 364     

Iowa                                       94              127
                    221
       Texas - BBBEF                             
  36
            16 
                52 

Kansas                                      1                3
                        
 4
   Texas - NHCOA                                23
            15 
                38 

Kentucky                                  103              103
              
 206            Texas - LEP               
                   0              6
                  6

Louisiana                                  78                6
                
 84           Utah                        
                36
           245                 281
Maine                                      98              129
                    227 
      Vermont                               
      10
            65                  75
Maryland                                  181               28
              
 209            Virginia - AAA            
                 223
           370 
               593 

Massachusetts                             334              720
      
         1,054          Virginia - BPSOS                              0              2
                  2

Michigan - AAA                              6
              87
                       93 
    Virgin Islands                                0              0                   0
Michigan - MCOP                             0                8
                          8
   Washington - IC                              64
           278 
               342 

Minnesota                                  15              215
              
 230            Washington - MSC          
                   0             20 
                20 

Mississippi                                83               52
             
 135             West Virginia - AARP     
                   45
            78 
               123 

Missouri                                   15               34
                   
 49        Wisconsin - CWAG                
            80
            65 
               145 

Montana                                    65               88
                  
 153        Wisconsin - GLITC              
             15
            29 
                44 

Nebraska                                   69               71
                
 140          Wyoming                     
                36
           100                 136

                                                                                                                                                                 12       

A P P E N D        I X        ~     C 



   PERFORMANCE MEASURE 5: Number of Volunteers Who, for the First Time, Conducted Activities to Educate Beneficiaries
                                  Jan. – June     July – Dec.     Total for 2005
                                        Jan. – June         July – Dec.      Total for 2005

Alabama                                    17                0                 
 17          Nevada                      
             3                 0
                                                                                                                                                         
                   3
Alaska                                     30               73
                  103
        New Hampshire                    
       17 
              6
                 23 

Arizona - DES                              15 
              8
                     23 
     New Jersey - JFVS                         0                 5
                  5

Arizona - ITZA                              0                0                          0    New Jersey - DHP                          0                3
                  3

Arkansas                                   29               19
              
 48            New Mexico                
              10               2
                                                                                                                                                       
0                  3
                                                                                                                                                                           
0
California                                 17               20
              
 37            New York                  
              24               1
                                                                                                                                                       
1                  3
                                                                                                                                                                           
5
Colorado                                    4               70
                  
 74        North Carolina - DOA          
           8
               5
                 13 

Connecticut                                 4               12
            
        16       North Dakota           
                  6
               2
                  8

Delaware                                    3                3
                 
 6
         Ohio - COAAA                              9
               0                   9

District of Columbia - AARP                 1
               0                          1
   Ohio - PSI                                1
                4
                  5

District of Columbia - FH                   4
               4
                         8
   Oklahoma                                  0                2
                  2

Florida                                     7                3
                     10 
     Oregon - SMP                        
     0             342 
               342 

Georgia - ARC                               0                5
                         5
   Oregon - MULTI                            0                7
                  7

Georgia - DHR                             402 
             58
                  460 
       Pennsylvania                              5
                5
                10
Guam                                        0                1
                         1
   Puerto Rico                               1
               0                   1

Hawaii                                      0                1
                         1
   Rhode Island                              0                0                   0
Idaho                                       3              109
                  112
        South Carolina                         
  0                 3
                  3

Illinois                                   41               14
                     55
                                                                                     
       South Dakota                      
       2
              16 
                18 

Indiana                                     2               11
                     13
      Tennessee                          
     14               2
                                                                                                                                                       
0                  3
                                                                                                                                                                           
4
Iowa                                       12               19
                     31
      Texas - BBBEF                         
  12 
           830 
               842 

Kansas                                      0                0                          0    Texas - NHCOA                             8
              20 
                28 

Kentucky                                   42                5
               
 47           Texas - LEP                
              0                 6
                  6

Louisiana                                  38               11
              
 49            Utah                      
              92             1
                                                                                                                                                     
 25                2
                                                                                                                                                                         
 17
Maine                                       1               30
                     31
      Vermont                               
   0                 3
                  3

Maryland                                    0               15
                     15       Virginia - AAA                
           0                0                   0
Massachusetts                               0                3
                         3
   Virginia - BPSOS                          0                4
                  4

Michigan - AAA                              0              458
                  458 
       Virgin Islands                            0                0                   0
Michigan - MCOP                             0                7
                         7
   Washington - IC                          69 
           247 
               316 

Minnesota                                  18              118
             
 136            Washington - MSC        
                 0               68 
                68 

Mississippi                                19               11
            
        30       West Virginia - AARP   
                  5
                7
                12 

Missouri                                   32                5
                 
 37         Wisconsin - CWAG             
            7
                6
                13 

Montana                                     1               10
                   
 11       Wisconsin - GLITC              
          0                 1
                  1

Nebraska                                   18                8
              
 26            Wyoming                   
               5
              12                  17

                                                                                                                                                           13         

A P P E N D        I X        ~     C 



                     PERFORMANCE MEASURE 6: Number of Group Sessions for Beneficiaries Led by Volunteers
                                  Jan. – June     July – Dec.      Total for 2005
                                             Jan. – June     July – Dec.         Total for 2005

Alabama                                   121                0                
 121
           Nevada                                   13                   0              
 13
Alaska                                     10               50                        
60
     New Hampshire   
                         7
               29 
                   36 

Arizona - DES                              24 
            175 
                   199
        New Jersey - JFVS                         0                  5
                     5

Arizona - ITZA                              0                0                            0    New Jersey - DHP                          0                  9
                     9

Arkansas                                   59               44                 
 103
          New Mexico
                              48                 4
                                                                                                                                                           
0                     8
                                                                                                                                                                                  
8
California                                120              105              
 225
             New York
                                                                                                      
                                 63 
               76 
                139 

Colorado                                   66                6
                 
 72
          North Carolina - DOA                     23 
              30 
                   53 

Connecticut                                 7               31              
 38
              North Dakota
                                                                                                      
                                 25                
17                    
42
Delaware                                   35               12                 
 47
           Ohio - COAAA
                                                                                                         
                              22 
                0                    22 

District of Columbia - AARP                25 
             42 
                       67
     Ohio - PSI                               24 
               50 
                   74 

District of Columbia - FH                   8
               5
                        13
     Oklahoma                                 22                  8
            
       30
Florida                                    51               21                       
72
      Oregon - SMP    
                        74 
                0                     74 

Georgia - ARC                             228 
             45 
                   273
        Oregon - MULTI                            0                  5
                     5

Georgia - DHR                             188 
            117 
                   305
        Pennsylvania                            152             
139                   
291
Guam                                        0               18                         18
     Puerto Rico 
                            70 
               48 
               118 

Hawaii                                     25               30                        
55
     Rhode Island    
                        15                5
                                                                                                                                                          
1                     6
                                                                                                                                                                                 
6
Idaho                                      27              449                     476
  
     South Carolina     
                      0             212 
                  212 

Illinois                                  182              189                     371

                                                                                   
           South Dakota  
                           5
                  9
                   14 

Indiana                                    79              169                     248

                                                                                   
           Tennessee     
                          89             1
                                                                                                                                                       
 01                   1
                                                                                                                                                                              
 90
Iowa                                      314              596                     910
 
      Texas - BBBEF     
                      23 
               37 
                   60 

Kansas                                      0                0                            0    Texas - NHCOA                           125              
131                   
256
Kentucky                                  132              178               
 310
            Texas -
 LEP                              0                   8
                     8

Louisiana                                  54                9
                
 63
           Utah                                     45             1
                                                                                                                                                       
 41                   1
                                                                                                                                                                              
 86
Maine                                      94              123                     217

       Vermont 
                                 0                 12                     12
Maryland                                    0              337                     337
        Virginia - 
AAA                          28 
               85 
               113 

Massachusetts                             115              332        
            447
        Virginia
                                                                                                
         - BPSOS                        0                  0                      0
Michigan - AAA                             17 
             28 
                       45
     Virgin Islands                            0                  0                      0
Michigan - MCOP                             0                2
                           2
   Washington - IC                         220 
           698 
                  918 

Minnesota                                  18              118               
 136
            Washington
                                                                                                       
            - MSC                0                 15 
                   15 

Mississippi                                62               33              
          95
     West Virginia
                                                                                                      
               - AARP            16 
               47 
                   63 

Missouri                                   54               67                    
121
        Wisconsin    
 - CWAG                    44 
               68 
               112 

Montana                                    53               99                   
 152
        Wisconsin   
 - GLITC                     0                   3
                     3

Nebraska                                   50              159                 
 209
          Wyoming   
                               7
                20                     27

                                                                                                                                                                  14        

A P P E N D        I X        ~     C 



              PERFORMANCE MEASURE 7: Number of Beneficiaries Who Attended Group Sessions Led by Volunteers
                                  Jan. – June    July – Dec.    Total for 2005                           Jan. – June    July – Dec.     Total for 2005
Alabama                                  2,929              0             2,929   Nevada                          117              0               117
Alaska                                      40            200               240   New Hampshire                   149            633               782
Arizona - DES                            2,287          4,054             6,341   New Jersey - JFVS                 0            148               148
Arizona - ITZA                               0              0                 0   New Jersey - DHP                  0            325               325
Arkansas                                 1,228          1,164             2,392   New Mexico                    1,614            800             2,414
California                               3,424          3,696             7,120   New York                      2,085          5,388             7,473
Colorado                                1,879             202             2,081   North Carolina - DOA            627            850             1,477
Connecticut                                163            888             1,051   North Dakota                  1,668            295             1,963
Delaware                                3,462           2,960             6,422   Ohio - COAAA                    372              0               372
District of Columbia - AARP              1,015          1,460             2,475   Ohio - PSI                    1,756          2,111             3,867
District of Columbia - FH                  268             98               366   Oklahoma                        549            911             1,460
Florida                                  3,999          1,666             5,665   Oregon - SMP                  2,021              0             2,021
Georgia - ARC                            5,906            972             6,878   Oregon - MULTI                    0             74                74
Georgia - DHR                            4,694          2,610             7,304   Pennsylvania                11,115           3,849            14,964
Guam                                         0            950               950   Puerto Rico                   2,646          2,716             5,362
Hawaii                                   1,600          1,500             3,100   Rhode Island                    430          3,638             4,068
Idaho                                      780         11,225            12,005   South Carolina                    0         13,030            13,030
Illinois                                 5,344          6,956            12,300   South Dakota                     77            197               274
Indiana                                  2,015         11,497            13,512   Tennessee                   10,539           4,701            15,240
Iowa                                   23,797           7,728            31,525   Texas - BBBEF                   716          1,603             2,319
Kansas                                       0              0                 0   Texas - NHCOA                 3,692          3,709             7,401
Kentucky                                 4,461          7,767            12,228   Texas - LEP                       0            346               346
Louisiana                                1,112            189             1,301   Utah                          1,149          8,555             9,704
Maine                                    2,399          1,981             4,380   Vermont                           0            145               145
Maryland                                     0         14,305            14,305   Virginia - AAA                  355          2,954             3,309
Massachusetts                                0              0                 0   Virginia - BPSOS                  0              0                 0
Michigan - AAA                             654            909             1,563   Virgin Islands                    0              0                 0
Michigan - MCOP                              0             34                34   Washington - IC               9,322         30,021            39,343
Minnesota                                  150          7,534             7,684   Washington - MSC                  0            300               300
Mississippi                              2,227            978             3,205   West Virginia - AARP            656          3,707             4,363
Missouri                                   860          2,288             3,148   Wisconsin - CWAG              1,167          1,790             2,957
Montana                                  1,226          2,519             3,745   Wisconsin - GLITC                 0              4                 4
Nebraska                                 1,254          8,578             9,832   Wyoming                          45            250               295

                                                                                                                                       15
A P P E N D        I X        ~     C 



            PERFORMANCE MEASURE 8: Number of One-on-One Sessions Held Between Beneficiaries and Volunteers
                                  Jan. – June      July – Dec.     Total for 2005
                                      Jan. – June          July – Dec.       Total for 2005

Alabama                                    940                0              
 940          Nevada                   
                241
              0                 241
Alaska                                      20              200
                   220
                                                                                     
      New Hampshire                     
     1,548             164 
             1,712
Arizona - DES                                0              150
                   150 
    New Jersey - JFVS                           0              10 
                10 

Arizona - ITZA                               0                0                        0    New Jersey - DHP                            0              14 
                14 

Arkansas                                    60              205
               
 265        New Mexico                 
           17,634          27,909              45,543
California                                  38              130
               
 168        New York                   
              237
            470 
               707 

Colorado                                    24              118
                
 142       North Carolina - DOA        
             102
            429 
               531 

Connecticut                                  5
               3
                       8
   North Dakota                                0              24 
                24 

Delaware                                   170               72
            
 242           Ohio - COAAA           
                  156
              0                 156 

District of Columbia - AARP                  0                4
                       4
   Ohio - PSI                                  6
              6
                 12 

District of Columbia - FH                   40 
              5
                     45 
   Oklahoma                                    2
              0                   2
Florida                                      1               31
                     32
    Oregon - SMP                        
 3,076               815 
             3,891
Georgia - ARC                              552 
            429
                   981 
    Oregon - MULTI                              0               0                   0
Georgia - DHR                              202 
             94
                   296 
    Pennsylvania                              520
            471                 991     

Guam                                         0              101
                   101      Puerto Rico                          
    420
          1,145               1,565
Hawaii                                       0                6
                       6
   Rhode Island                                0               0                   0
Idaho                                      759            2,469                3,228
       South Carolina                            127
              3
                130 

Illinois                                     7              209
                   216
     South Dakota                         
    177
            361 
               538 

Indiana                                    252            3,045                3,297
                                                                                 
          Tennessee                               2,128           9,651              11,779
Iowa                                        49               20
                     69
    Texas - BBBEF                        
    104
             28 
               132 

Kansas                                      24                0                    
 24     Texas - NHCOA                   
         436
            449 
               885 

Kentucky                                 2,641            4,531                7,172        Texas - LEP                                 0              11 
                11 

Louisiana                                  315              127
            
 442           Utah                   
                1,386           9,345              10,731
Maine                                      710            1,059                1,769
                                                                                   
        Vermont                                     0               0                   0
Maryland                                 1,190            2,439                3,629        Virginia - AAA                              0               0                   0
Massachusetts                            5,676            8,542             14,218          Virginia - BPSOS                            0              24 
                24 

Michigan - AAA                              27 
          1,454                1,481        Virgin Islands                              0               0                   0
Michigan - MCOP                              0                8
                       8
   Washington - IC                        16,252           7,934              24,186
Minnesota                                   32               39
             
 71           Washington - MSC        
                   0             100 
               100 

Mississippi                                998              989
           
 1,987          West Virginia - AARP                        1
             20 
                21 

Missouri                                    82              635
                 
717       Wisconsin - CWAG              
            15
             41 
                56 

Montana                                    499            1,050               
1,549        Wisconsin - GLITC                           0              31 
                31 

Nebraska                                   164               71
            
 235           Wyoming                
                  815
          2,884               3,699

                                                                                                                                                              16       

A P P E N D        I X        ~     C 



                          PERFORMANCE MEASURE 9: Estimated Number of People Reached by Media Events
                                  Jan. – June   July – Dec.    Total for 2005                           Jan. – June    July – Dec.     Total for 2005
Alabama                               108,925              0          108,925    Nevada                        4,500              0             4,500
Alaska                                500,000        500,000        1,000,000    New Hampshire              220,000         345,000           565,000
Arizona - DES                          52,802         18,550            71,352   New Jersey - JFVS           27,350       3,697,955        3,725,305
Arizona - ITZA                              0              0                 0   New Jersey - DHP                  0        126,225           126,225
Arkansas                              882,388        216,500        1,098,888    New Mexico                 251,310         609,600           860,910
California                          5,500,000      8,686,149       14,186,149    New York                   435,000         640,000        1,075,000
Colorado                              460,300        196,900          657,200    North Carolina - DOA        40,072         432,586           472,658
Connecticut                           768,000      2,509,137        3,277,137    North Dakota               122,544         628,085           750,629
Delaware                              200,000        150,000          350,000    Ohio - COAAA               200,000               0           200,000
District of Columbia - AARP                 0              0                 0   Ohio - PSI               4,009,213       1,781,032        5,790,245
District of Columbia - FH             375,000        200,000          575,000    Oklahoma                          0         75,984            75,984
Florida                               533,300        651,300        1,184,600    Oregon - SMP                  7,292        127,700           134,992
Georgia - ARC                         186,302         38,270          224,572    Oregon - MULTI                    0        669,550           669,550
Georgia - DHR                       1,020,801        978,447        1,999,248    Pennsylvania             1,120,000       2,477,000        3,597,000
Guam                                        0        150,000          150,000    Puerto Rico                375,000          75,000           450,000
Hawaii                                200,000        225,000          425,000    Rhode Island             6,000,000       6,300,000       12,300,000
Idaho                                 627,929      1,086,927        1,714,856    South Carolina              46,800         364,190           410,990
Illinois                            8,893,230      2,163,800       11,057,030    South Dakota               284,000         419,750           703,750
Indiana                                 4,800        985,650          990,450    Tennessee                1,442,023         553,744        1,995,767
Iowa                                1,142,908        988,302        2,131,210    Texas - BBBEF               45,300         823,120           868,420
Kansas                                 22,000              0            22,000   Texas - NHCOA            2,751,000       4,905,000        7,656,000
Kentucky                            1,700,797      2,000,000        3,700,797    Texas - LEP                       0         26,200            26,200
Louisiana                             102,200         50,000          152,200    Utah                          8,919         24,792            33,711
Maine                               1,144,895        938,500        2,083,395    Vermont                    202,000          58,335           260,335
Maryland                              183,997        616,350          800,347    Virginia - AAA           1,388,533       1,173,020        2,561,553
Massachusetts                       3,608,672      2,641,947        6,250,619    Virginia - BPSOS                  0            900               900
Michigan - AAA                        215,000        179,868          394,868    Virgin Islands                    0              0                 0
Michigan - MCOP                             0        147,000          147,000    Washington - IC          5,659,464       3,677,237        9,336,701
Minnesota                                   0         72,485            72,485   Washington - MSC                  0              0                 0
Mississippi                           280,052        190,124          470,176    West Virginia- AARP      1,448,151       2,418,401        3,866,552
Missouri                               25,000        135,000          160,000    Wisconsin - CWAG         1,577,345         279,064        1,856,409
Montana                               615,400        397,026        1,012,426    Wisconsin - GLITC               647         96,424            97,071
Nebraska                              429,195        659,324        1,088,519    Wyoming                    100,000           1,500           101,500

                                                                                                                                      17
A P P E N D        I X        ~     C 



               PERFORMANCE MEASURE 10: Estimated Number of People Reached by Community Education Events
                                  Jan. – June   July – Dec.    Total for 2005                           Jan. – June    July – Dec.    Total for 2005
Alabama                                29,748              0            29,748   Nevada                        3,870             0             3,870
Alaska                                    185          2,572             2,757   New Hampshire                   880         3,655             4,535
Arizona - DES                           2,598          4,054             6,652   New Jersey - JFVS             5,370         5,044            10,414
Arizona - ITZA                              0              0                 0   New Jersey - DHP                  0         1,533             1,533
Arkansas                                5,305          4,535             9,840   New Mexico                    4,345        13,107            17,452
California                              5,023          7,173            12,196   New York                    16,352         21,901            38,253
Colorado                                1,328         19,252            20,580   North Carolina - DOA          5,138         4,513             9,651
Connecticut                             7,774         22,099            29,873   North Dakota                  3,810         2,169             5,979
Delaware                                1,550          4,500             6,050   Ohio - COAAA                  4,700             0             4,700
District of Columbia - AARP             3,375          5,000             8,375   Ohio - PSI                    4,156           782             4,938
District of Columbia - FH               3,325         54,150            57,475   Oklahoma                      8,611       117,077           125,688
Florida                                 3,976          3,279             7,255   Oregon - SMP                  4,216        14,956            19,172
Georgia - ARC                             212          9,590             9,802   Oregon - MULTI                    0         1,944             1,944
Georgia - DHR                           7,369         24,744            32,113   Pennsylvania                  1,588         1,142             2,730
Guam                                        0            770               770   Puerto Rico                   1,079           700             1,779
Hawaii                                  5,000          6,000            11,000   Rhode Island                  9,000         6,000            15,000
Idaho                                   9,568         13,193            22,761   South Carolina              12,280         19,011            31,291
Illinois                                6,980         12,700            19,680   South Dakota                    630         4,609             5,239
Indiana                                14,127         11,341            25,468   Tennessee                   31,318         13,312            44,630
Iowa                                    7,127         16,481            23,608   Texas - BBBEF                 1,659         4,052             5,711
Kansas                                    200            350               550   Texas - NHCOA                 2,613         2,282             4,895
Kentucky                                5,289          5,836            11,125   Texas - LEP                       0           588               588
Louisiana                               4,019            121             4,140   Utah                          1,539        11,390            12,929
Maine                                   7,235          6,493            13,728   Vermont                         320         2,502             2,822
Maryland                                5,801          8,184            13,985   Virginia - AAA              12,678         14,791            27,469
Massachusetts                          12,949         60,497            73,446   Virginia - BPSOS                  0            95                95
Michigan - AAA                            799          6,036             6,835   Virgin Islands                    0             0                 0
Michigan - MCOP                             0            975               975   Washington - IC             18,834         37,752            56,586
Minnesota                                 248         17,329            17,577   Washington - MSC                  0           450               450
Mississippi                             8,962         76,244            85,206   West Virginia - AARP        27,793          7,939            35,732
Missouri                                2,500         10,000            12,500   Wisconsin - CWAG              6,488        12,042            18,530
Montana                                 3,137          3,748             6,885   Wisconsin - GLITC               660         1,986             2,646
Nebraska                               13,791         79,056            92,847   Wyoming                     15,000             50            15,050

                                                                                                                                     18
A P P E N D        I X        ~     C 



                         PERFORMANCE MEASURE 11: Number of Complaints Received Attributable to the Project
                                  Jan. – June     July – Dec.     Total for 2005
                                   Jan. – June      July – Dec.       Total for 2005

Alabama                                    38                0                 
 38       Nevada                     
         45
              0                  45
Alaska                                      2                1
                     
3
   New Hampshire                         3
            109 
               112 

Arizona - DES                               6
               5
                    11 
   New Jersey - JFVS                     1
              1
                  2

Arizona - ITZA                              0                0                       0    New Jersey - DHP                      0               0                   0
Arkansas                                   20               31
              
 51         New Mexico               
        9,265           9,390              18,655
California                                 55               16
              
 71         New York                 
          217
            302 
               519 

Colorado                                    4                5
                 
 9
      North Carolina - DOA                 34
             47 
                81 

Connecticut                                 5                6
            
       11     North Dakota           
              0               1
                  1

Delaware                                   28                8
              
 36         Ohio - COAAA             
            6
              0                   6

District of Columbia - AARP                10 
             53
                    63 
   Ohio - PSI                           10
              4
                 14 

District of Columbia - FH                  10 
              0                     10 
   Oklahoma                             12
             13                  25
Florida                                    13               14
                  
27      Oregon - SMP                 
       15
             11 
                26 

Georgia - ARC                               9
              14
                    23 
   Oregon - MULTI                        0               0                   0
Georgia - DHR                              48 
             12
                    60 
   Pennsylvania                         99
             94                 193     

Guam                                        0                0                       0    Puerto Rico                          23
             33 
                56 

Hawaii                                     25               23
                   
48     Rhode Island                  
       4
              3
                  7

Idaho                                     262              326
                 588
                                                                                 
        South Carolina               
        2
              2
                  4

Illinois                                    5                4
                      9

                                                                                     
    South Dakota                          1
             10 
                11 

Indiana                                     0                1
                      1
   Tennessee                            16
             41                  57
Iowa                                       49               73
                 122
      Texas - BBBEF                   
    50
              9
                 59 

Kansas                                      0                5
                      5
   Texas - NHCOA                       436
            380 
               816 

Kentucky                                   34                1
               
 35        Texas - LEP               
           0               3
                  3

Louisiana                                  11               11
              
 22         Utah                     
           89
            164                 253
Maine                                       0               10
                    10     Vermont                         
     4
              4
                  8
Maryland                                  403               33
             
 436         Virginia - AAA         
             12
             11 
                23 

Massachusetts                             382              662
      
       1,044        Virginia - BPSOS                      0               0                   0
Michigan - AAA                              0                9
                      9
   Virgin Islands                        0               0                   0
Michigan - MCOP                             0                1
                      1
   Washington - IC                      12
            191 
               203 

Minnesota                                  47               37
             
 84          Washington - MSC       
              0              10 
                10 

Mississippi                                23            3,708             
 3,731        West Virginia - AARP                  7
              7
                 14 

Missouri                                    5               12
                  
17      Wisconsin - CWAG             
       24
              9
                 33 

Montana                                    45               10
                
 55       Wisconsin - GLITC          
          0               0                   0
Nebraska                                   12               51
              
 63         Wyoming                  
           25
             10                  35

                                                                                                                                                      19       

A P P E N D        I X        ~     C 



                                  PERFORMANCE MEASURE 12: Number of Complaints Referred for Followup
                                  Jan. – June   July – Dec.    Total for 2005                           Jan. – June   July – Dec.    Total for 2005
Alabama                                     2              0                 2   Nevada                           4             0                 4
Alaska                                      0              0                 0   New Hampshire                    1            22                23
Arizona - DES                               3              3                 6   New Jersey - JFVS                1             0                 1
Arizona - ITZA                              0              0                 0   New Jersey - DHP                 0             0                 0
Arkansas                                    7             16                23   New Mexico                      27            52                79
California                                 55              8                63   New York                        53            35                88
Colorado                                    1              4                 5   North Carolina - DOA            10            19                29
Connecticut                                 4              2                 6   North Dakota                     0             1                 1
Delaware                                   11              8                19   Ohio - COAAA                     2             0                 2
District of Columbia - AARP                 0              0                 0   Ohio - PSI                       4             1                 5
District of Columbia - FH                  10              1                11   Oklahoma                         6             4                10
Florida                                     5              7                12   Oregon - SMP                     3             3                 6
Georgia - ARC                               4              5                 9   Oregon - MULTI                   0             0                 0
Georgia - DHR                              10              8                18   Pennsylvania                     0             0                 0
Guam                                        0              0                 0   Puerto Rico                     19            28                47
Hawaii                                      0              2                 2   Rhode Island                     0             0                 0
Idaho                                       3              7                10   South Carolina                   2             2                 4
Illinois                                    5              2                 7   South Dakota                     1             0                 1
Indiana                                     0              1                 1   Tennessee                        2            30                32
Iowa                                       15             17                32   Texas - BBBEF                    9             9                18
Kansas                                      0              4                 4   Texas - NHCOA                   26            21                47
Kentucky                                    3              1                 4   Texas - LEP                      0             3                 3
Louisiana                                   1              3                 4   Utah                            22            37                59
Maine                                       1             10                11   Vermont                          1             5                 6
Maryland                                   13              0                13   Virginia - AAA                   8             5                13
Massachusetts                               0              0                 0   Virginia - BPSOS                 0             0                 0
Michigan - AAA                              0              0                 0   Virgin Islands                   0             0                 0
Michigan - MCOP                             0              0                 0   Washington - IC                  7           191               198
Minnesota                                  24             26                50   Washington - MSC                 0            10                10
Mississippi                                 0              2                 2   West Virginia - AARP             3             1                 4
Missouri                                    2              7                 9   Wisconsin - CWAG                 5             2                 7
Montana                                     1              6                 7   Wisconsin - GLITC                0             0                 0
Nebraska                                    6              5                11   Wyoming                          6             0                 6

                                                                                                                                    20
A P P E N D        I X        ~     C 



                              PERFORMANCE MEASURE 13: Number of Complaints That Resulted in Some Action
                                  Jan. – June   July – Dec.    Total for 2005                           Jan. – June   July – Dec.    Total for 2005
Alabama                                     2              0                 2   Nevada                           0             0                 0
Alaska                                      0              0                 0   New Hampshire                    1             3                 4
Arizona - DES                               0              0                 0   New Jersey - JFVS                0             0                 0
Arizona - ITZA                              0              0                 0   New Jersey - DHP                 0             0                 0
Arkansas                                    4              4                 8   New Mexico                      27            11                38
California                                  5              4                 9   New York                       203            35               238
Colorado                                    0              5                 5   North Carolina - DOA             2             0                 2
Connecticut                                 0              1                 1   North Dakota                     0             1                 1
Delaware                                   28              8                36   Ohio - COAAA                     1             0                 1
District of Columbia - AARP                 0              0                 0   Ohio - PSI                       0             0                 0
District of Columbia - FH                   0              1                 1   Oklahoma                         0             0                 0
Florida                                     1              0                 1   Oregon - SMP                     0             0                 0
Georgia - ARC                               1              1                 2   Oregon - MULTI                   0             0                 0
Georgia - DHR                               1              2                 3   Pennsylvania                     1             0                 1
Guam                                        0              0                 0   Puerto Rico                      7            22                29
Hawaii                                      0              2                 2   Rhode Island                     0             0                 0
Idaho                                       0              0                 0   South Carolina                   0             2                 2
Illinois                                    2              3                 5   South Dakota                     0             0                 0
Indiana                                     0              0                 0   Tennessee                        0             2                 2
Iowa                                       12             13                25   Texas - BBBEF                    2             7                 9
Kansas                                      0              0                 0   Texas - NHCOA                    5             3                 8
Kentucky                                    1              1                 2   Texas - LEP                      0             3                 3
Louisiana                                   1              2                 3   Utah                             4            43                47
Maine                                       1              5                 6   Vermont                          0             3                 3
Maryland                                    0              0                 0   Virginia - AAA                   0             0                 0
Massachusetts                               0              0                 0   Virginia - BPSOS                 0             0                 0
Michigan - AAA                              0              0                 0   Virgin Islands                   0             0                 0
Michigan - MCOP                             0              0                 0   Washington - IC                  4           191               195
Minnesota                                  16             11                27   Washington - MSC                 0             0                 0
Mississippi                                18              0                18   West Virginia - AARP             0             0                 0
Missouri                                    0              0                 0   Wisconsin - CWAG                 4             2                 6
Montana                                     0              2                 2   Wisconsin - GLITC                0             0                 0
Nebraska                                    4              0                 4   Wyoming                          0             0                 0

                                                                                                                                    21
A P P E N D        I X        ~     C 



                          PERFORMANCE MEASURE 14: Medicare Funds Recovered Attributable to the Project
                                  Jan. – June   July – Dec.     Total for 2005                           Jan. – June   July – Dec.     Total for 2005
Alabama                                    $0              $0                $0   Nevada                          $0             $0                $0
Alaska                                     $0              $0                $0   New Hampshire                   $0             $0                $0
Arizona - DES                              $0              $0                $0   New Jersey - JFVS               $0            $72               $72
Arizona - ITZA                             $0              $0                $0   New Jersey - DHP                $0             $0                $0
Arkansas                               $4,856          $8,523          $13,379    New Mexico                      $0             $0                $0
California                             $6,552          $6,880          $13,432    New York                   $36,505        $63,695         $100,200
Colorado                                   $0              $0                $0   North Carolina - DOA            $0             $0                $0
Connecticut                                $0              $0                $0   North Dakota                    $0             $0                $0
Delaware                                   $0              $0                $0   Ohio - COAAA                    $0             $0                $0
District of Columbia - AARP                $0              $0                $0   Ohio - PSI                      $0             $0                $0
District of Columbia - FH                  $0              $0                $0   Oklahoma                        $0             $0                $0
Florida                               $27,668          $8,160          $35,828    Oregon - SMP                    $0             $0                $0
Georgia - ARC                            $338              $0              $338   Oregon - MULTI                  $0             $0                $0
Georgia - DHR                            $186          $2,157            $2,343   Pennsylvania                    $0             $0                $0
Guam                                       $0              $0                $0   Puerto Rico                   $296         $2,072            $2,368
Hawaii                                     $0              $0                $0   Rhode Island                    $0             $0                $0
Idaho                                      $0              $0                $0   South Carolina                  $0             $0                $0
Illinois                                   $0              $0                $0   South Dakota                    $0             $0                $0
Indiana                                    $0              $0                $0   Tennessee                       $0             $0                $0
Iowa                                       $0              $0                $0   Texas - BBBEF                  $79           $351              $430
Kansas                                     $0              $0                $0   Texas - NHCOA               $5,829        $10,345           $16,174
Kentucky                                 $665            $488            $1,153   Texas - LEP                     $0             $0                $0
Louisiana                                  $0              $0                $0   Utah                            $0             $0                $0
Maine                                      $0              $0                $0   Vermont                         $0           $124              $124
Maryland                                   $0              $0                $0   Virginia - AAA                  $0             $0                $0
Massachusetts                              $0              $0                $0   Virginia - BPSOS                $0             $0                $0
Michigan - AAA                             $0              $0                $0   Virgin Islands                  $0             $0                $0
Michigan - MCOP                            $0              $0                $0   Washington - IC                 $0             $0                $0
Minnesota                                $216              $0              $216   Washington - MSC                $0             $0                $0
Mississippi                                $0              $0                $0   West Virginia - AARP            $0             $0                $0
Missouri                                   $0              $0                $0   Wisconsin - CWAG                $0             $0                $0
Montana                                    $0              $0                $0   Wisconsin - GLITC               $0             $0                $0
Nebraska                                   $0              $0                $0   Wyoming                         $0             $0                $0

                                                                                                                                      22
A P P E N D        I X        ~     C 



                         PERFORMANCE MEASURE 15A: Medicaid Funds Recovered Attributable to the Project
                                  Jan. – June   July – Dec.     Total for 2005                           Jan. – June   July – Dec.     Total for 2005
Alabama                                    $0              $0                $0   Nevada                          $0             $0                $0
Alaska                                     $0              $0                $0   New Hampshire                   $0             $0                $0
Arizona - DES                              $0              $0                $0   New Jersey - JFVS               $0             $0                $0
Arizona - ITZA                             $0              $0                $0   New Jersey - DHP                $0             $0                $0
Arkansas                                   $0              $0                $0   New Mexico                      $0             $0                $0
California                                 $0              $0                $0   New York                        $0             $0                $0
Colorado                                   $0              $0                $0   North Carolina - DOA            $0             $0                $0
Connecticut                                $0              $0                $0   North Dakota                    $0             $0                $0
Delaware                                   $0              $0                $0   Ohio - COAAA                    $0             $0                $0
District of Columbia - AARP                $0              $0                $0   Ohio - PSI                      $0             $0                $0
District of Columbia - FH                  $0              $0                $0   Oklahoma                        $0             $0                $0
Florida                                    $0              $0                $0   Oregon - SMP                    $0             $0                $0
Georgia - ARC                              $0              $0                $0   Oregon - MULTI                  $0             $0                $0
Georgia - DHR                              $0              $0                $0   Pennsylvania                    $0             $0                $0
Guam                                       $0              $0                $0   Puerto Rico                     $0             $0                $0
Hawaii                                     $0              $0                $0   Rhode Island                    $0             $0                $0
Idaho                                      $0              $0                $0   South Carolina                  $0             $0                $0
Illinois                                   $0              $0                $0   South Dakota                    $0             $0                $0
Indiana                                    $0              $0                $0   Tennessee                       $0             $0                $0
Iowa                                       $0              $0                $0   Texas - BBBEF                   $0             $0                $0
Kansas                                     $0              $0                $0   Texas - NHCOA                   $0             $0                $0
Kentucky                                   $0              $0                $0   Texas - LEP                     $0             $0                $0
Louisiana                                  $0              $0                $0   Utah                            $0             $0                $0
Maine                                      $0              $0                $0   Vermont                         $0         $1,499            $1,499
Maryland                                   $0              $0                $0   Virginia - AAA                  $0             $0                $0
Massachusetts                              $0              $0                $0   Virginia - BPSOS                $0             $0                $0
Michigan - AAA                             $0              $0                $0   Virgin Islands                  $0             $0                $0
Michigan - MCOP                            $0              $0                $0   Washington - IC                 $0             $0                $0
Minnesota                                  $0              $0                $0   Washington - MSC                $0             $0                $0
Mississippi                                $0              $0                $0   West Virginia - AARP            $0             $0                $0
Missouri                                   $0              $0                $0   Wisconsin - CWAG                $0             $0                $0
Montana                                    $0              $0                $0   Wisconsin - GLITC               $0             $0                $0
Nebraska                                   $0              $0                $0   Wyoming                         $0             $0                $0

                                                                                                                                      23
A P P E N D        I X        ~    C 



                              PERFORMANCE MEASURE 15B: Savings to Beneficiaries Attributable to the Project
                                  Jan. – June    July – Dec.     Total for 2005                           Jan. – June   July – Dec.         Total for 2005
Alabama                                     $0              $0                $0   Nevada                          $0             $0                    $0
Alaska                                      $0              $0                $0   New Hampshire                   $0             $0                    $0
Arizona - DES                               $0              $0                $0   New Jersey - JFVS               $0         $2,500                $2,500
Arizona - ITZA                              $0              $0                $0   New Jersey - DHP                $0             $0                    $0
Arkansas                                    $0              $0                $0   New Mexico                  $4,350        $28,606               $32,956
California                              $5,355              $0            $5,355   New York                    $1,604             $0                $1,604
Colorado                                  $339          $1,922            $2,261   North Carolina - DOA            $0             $0                    $0
Connecticut                                 $0              $0                $0   North Dakota                    $0             $0                    $0
Delaware                                $1,583              $0            $1,583   Ohio - COAAA                    $0             $0                    $0
District of Columbia - AARP                 $0              $0                $0   Ohio - PSI                     $97             $0                   $97
District of Columbia - FH                   $0              $0                $0   Oklahoma                        $0             $0                    $0
Florida                                     $0              $0                $0   Oregon - SMP                    $0             $0                    $0
Georgia - ARC                               $0              $0                $0   Oregon - MULTI                  $0             $0                    $0
Georgia - DHR                               $0              $0                $0   Pennsylvania                $1,673         $8,520               $10,193
Guam                                        $0              $0                $0   Puerto Rico                   $100             $0                  $100
Hawaii                                      $0              $0                $0   Rhode Island                    $0             $0                    $0
Idaho                                  $23,614          $8,743          $32,357    South Carolina                  $0             $0                    $0
Illinois                                  $200              $0              $200   South Dakota                    $0             $0                    $0
Indiana                                     $0              $0                $0   Tennessee                       $0             $0                    $0
Iowa                                        $0              $0                $0   Texas - BBBEF                   $0             $0                    $0
Kansas                                      $0              $0                $0   Texas - NHCOA                   $0             $0                    $0
Kentucky                                    $0              $0                $0   Texas - LEP                     $0             $0                    $0
Louisiana                                 $925           $227             $1,152   Utah                            $0             $0                    $0
Maine                                       $0              $0                $0   Vermont                         $0             $0                    $0
Maryland                                    $0              $0                $0   Virginia - AAA                  $0             $0                    $0
Massachusetts                               $0              $0                $0   Virginia - BPSOS                $0             $0                    $0
Michigan - AAA                              $0              $0                $0   Virgin Islands                  $0             $0                    $0
Michigan - MCOP                             $0              $0                $0   Washington - IC                 $0             $0                    $0
Minnesota                               $4,344          $6,910          $11,254    Washington - MSC                $0             $0                    $0
Mississippi                               $298              $0              $298   West Virginia - AARP            $0             $0                    $0
Missouri                                    $0              $0                $0   Wisconsin - CWAG                $0             $0                    $0
Montana                                     $0          $1,676            $1,676   Wisconsin - GLITC               $0             $0                    $0
Nebraska                                   $15            $220              $235   Wyoming                         $0             $0                    $0

                                                                                                                                       24
A P P E N D        I X        ~    C 



                                    PERFORMANCE MEASURE 15C: Other Savings Attributable to the Project
                                  Jan. – June    July – Dec.     Total for 2005                           Jan. – June   July – Dec.         Total for 2005
Alabama                                     $0              $0                $0   Nevada                          $0             $0                    $0
Alaska                                      $0              $0                $0   New Hampshire                   $0             $0                    $0
Arizona - DES                               $0              $0                $0   New Jersey - DHPR               $0             $0                    $0
Arizona - ITZA                              $0              $0                $0   New Jersey - JFVS               $0             $0                    $0
Arkansas                                    $0              $0                $0   New Mexico                      $0             $0                    $0
California                                  $0              $0                $0   New York                        $0             $0                    $0
Colorado                                    $0              $0                $0   North Carolina - DOA            $0             $0                    $0
Connecticut                                 $0              $0                $0   North Dakota                    $0             $0                    $0
Delaware                                    $0              $0                $0   Ohio - COAAA                    $0             $0                    $0
District of Columbia - AARP                 $0              $0                $0   Ohio - PSI                      $0             $0                    $0
District of Columbia - FH                   $0              $0                $0   Oklahoma                        $0             $0                    $0
Florida                                     $0              $0                $0   Oregon - SMP                    $0             $0                    $0
Georgia - ARC                               $0              $0                $0   Oregon - MULTI                  $0             $0                    $0
Georgia - DHR                               $0              $0                $0   Pennsylvania                    $0             $0                    $0
Guam                                        $0              $0                $0   Puerto Rico                     $0             $0                    $0
Hawaii                                      $0              $0                $0   Rhode Island                    $0             $0                    $0
Idaho                                       $0              $0                $0   South Carolina                  $0             $0                    $0
Illinois                                    $0              $0                $0   South Dakota                    $0             $0                    $0
Indiana                                     $0              $0                $0   Tennessee                       $0             $0                    $0
Iowa                                        $0              $0                $0   Texas - BBBEF                   $0             $0                    $0
Kansas                                      $0              $0                $0   Texas - NHCOA                   $0             $0                    $0
Kentucky                                    $0              $0                $0   Texas - LEP                     $0             $0                    $0
Louisiana                                   $0              $0                $0   Utah                            $0             $0                    $0
Maine                                       $0              $0                $0   Vermont                         $0             $0                    $0
Maryland                                    $0              $0                $0   Virginia - AAA                  $0             $0                    $0
Massachusetts                               $0              $0                $0   Virginia - BPSOS                $0             $0                    $0
Michigan - AAA                              $0              $0                $0   Virgin Islands                  $0             $0                    $0
Michigan - MCOP                             $0              $0                $0   Washington - IC                 $0             $0                    $0
Minnesota                                   $0              $0                $0   Washington - MSC                $0             $0                    $0
Mississippi                                 $0            $10                $10   West Virginia - AARP            $0             $0                    $0
Missouri                                    $0              $0                $0   Wisconsin - CWAG                $0             $0                    $0
Montana                                     $0              $0                $0   Wisconsin - GLITC               $0             $0                    $0
Nebraska                                    $0              $0                $0   Wyoming                         $0             $0                    $0

                                                                                                                                       25
   Δ       A P P E N D I X               ~     D


                                       Individual Project Results for 2005
The following tables provide the results for each performance measure for each of the 66 Senior Medicare Patrol Projects operating in
2005. Each table provides the performance measure results for the two 6-month reporting periods.

Please note that Performance Measure 9, “Estimated number of people reached by media events,” is calculated by adding the average
number of viewers reached each time an advertisement is aired and the number of readers reached for each individual printed
advertisement.

Two projects operated by the Alabama Commission on Aging and the Central Ohio Area Agency on Aging closed in June 2005.




                                                                                                                              26
A P P E N D       I X       ~     D 



                                            Alabama – Alabama Commission on Aging, Montgomery
                                                                                             Total for                                         Change in
In operation since: July 1999 – closed June 2005                                                             Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               7             7                 0              -7
    2        Number of new volunteers trained                                                        51               51                 0             -51
    3        Number of media events conducted                                                       136              136                 0           -136
    4        Number of community education events conducted                                         279              279                 0           -279
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           17               17                 0             -17
    6        Number of group sessions for beneficiaries led by volunteers                           121              121                 0           -121
    7        Number of beneficiaries who attended group sessions led by volunteers                2,929            2,929                 0          -2,929
    8        Number of one-on-one sessions held between beneficiaries and volunteers                940              940                 0           -940
   7+8       Total number of beneficiaries educated                                               3,869            3,869                 0          -3869
    9        Estimated number of people reached by media events                                 108,925          108,925                 0        -108,925
    10       Estimated number of people reached by community education events                    29,748           29,748                 0         -29,748
    11       Number of complaints received attributable to the project                               38               38                 0             -38
    12       Number of complaints referred for followup                                                  2             2                 0              -2
    13       Number of complaints that resulted in some action                                           2             2                 0              -2
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                 $0




                                                                                                                                             27
A P P E N D        I X       ~     D 



                                          Alaska – Alaska State Division of Senior Services, Anchorage
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           21 
               5
             16
                     11 

     2
       Number of new volunteers trained                                                       163 
              30 
           133
                    103 

     3
       Number of media events conducted                                                        13 
               1
             12
                     11 

     4
       Number of community education events conducted                                          22 
               5
             17
                     12 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                          103                
30             73

                                                                                                                                        
                       43
     6
       Number of group sessions for beneficiaries led by volunteers                            60 
              10 
            50
                     40 

     7
       Number of beneficiaries who attended group sessions led by volunteers                  240 
              40 
           200
                    160 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                220 
              20 
           200
                    180 

   7+8
       Total number of beneficiaries educated                                                 460 
              60 
           400
                    340 

     9
       Estimated number of people reached by media events                               1,000,000           500,000         500,000                       0

    10 
      Estimated number of people reached by community education events                     2,757               185 
          2,572              2,387 

    11 
      Number of complaints received attributable to the project                                   3
             2
                  1
                 -1 

    12 
      Number of complaints referred for followup                                                  0              0                   0                   0

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  28       

A P P E N D       I X       ~     D 



                                         Arizona – Arizona Department of Economic Security, Phoenix
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           44               15            29                 14
    2        Number of new volunteers trained                                                        71               33            38                  5
    3        Number of media events conducted                                                        25               14            11                  -3
    4        Number of community education events conducted                                         133               24           109                 85
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           23               15                 8              -7
    6        Number of group sessions for beneficiaries led by volunteers                           199               24           175                151
    7        Number of beneficiaries who attended group sessions led by volunteers                6,341            2,287          4,054              1,767
    8        Number of one-on-one sessions held between beneficiaries and volunteers                150                0           150                150
   7+8       Total number of beneficiaries educated                                               6,491            2,287          4,204              1917
    9        Estimated number of people reached by media events                                  71,352           52,802        18,550             -34,252
    10       Estimated number of people reached by community education events                     6,652            2,598          4,054             1,456
    11       Number of complaints received attributable to the project                               11                6                 5              -1
    12       Number of complaints referred for followup                                                  6             3                 3              0
    13       Number of complaints that resulted in some action                                           0             0                 0              0
    14       Medicare funds recovered attributable to the project                                    $0                0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0                0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0                0            $0                 $0
   15C       Other savings attributable to the project                                               $0                0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0                0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0                0            $0                 $0




                                                                                                                                             29
A P P E N D       I X       ~     D 



                                                 Arizona – Inter Tribal Council of Arizona, Phoenix
                                                                                             Total for                                         Change in
In operation since: July 2005                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               0             0                 0              0
    2        Number of new volunteers trained                                                            0             0                 0              0
    3        Number of media events conducted                                                            0             0                 0              0
    4        Number of community education events conducted                                              0             0                 0              0
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               0             0                 0              0
    6        Number of group sessions for beneficiaries led by volunteers                                0             0                 0              0
    7        Number of beneficiaries who attended group sessions led by volunteers                       0             0                 0              0
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     0             0                 0              0
   7+8       Total number of beneficiaries educated                                                      0             0                 0              0
    9        Estimated number of people reached by media events                                          0             0                 0              0
    10       Estimated number of people reached by community education events                            0             0                 0              0
    11       Number of complaints received attributable to the project                                   0             0                 0              0
    12       Number of complaints referred for followup                                                  0             0                 0              0
    13       Number of complaints that resulted in some action                                           0             0                 0              0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                 $0




                                                                                                                                             30
A P P E N D        I X       ~     D 



                                    Arkansas – Arkansas Division of Aging and Adult Services, Little Rock
                                                                                              Total for                                             Change in
In operation since: July 2002                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           10 
               4
                  6
                  2

     2
       Number of new volunteers trained                                                        62 
              45 
            17
                    -28 

     3
       Number of media events conducted                                                        35 
              19 
            16
                     -3 

     4
       Number of community education events conducted                                         126 
              42 
            84
                     42 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           48                2
                                                                                                                        
9              19

                                                                                                                                        
                      -10
     6
       Number of group sessions for beneficiaries led by volunteers                           103 
              59 
            44
                    -15 

     7
       Number of beneficiaries who attended group sessions led by volunteers                2,392             1,228            1,164                    -64 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                265 
              60 
           205
                    145 

   7+8
       Total number of beneficiaries educated                                               2,657             1,288            1,369                     81 

     9
       Estimated number of people reached by media events                               1,098,888           882,388         216,500             -665,888 

    10 
      Estimated number of people reached by community education events                     9,840             5,305            4,535                -770 

    11 
      Number of complaints received attributable to the project                               51 
              20 
            31
                     11 

    12 
      Number of complaints referred for followup                                              23 
               7
             16
                      9

    13 
      Number of complaints that resulted in some action                                           8
             4
                  4
                  0

    14 
      Medicare funds recovered attributable to the project                               $13,379             4,856          $8,523              $3,667
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                          $13,379            $4,856          $8,523              $3,667




                                                                                                                                                  31       

A P P E N D       I X       ~     D 



                California – California Health Insurance Counseling Advocacy Programs Association, Sacramento
                                                                                             Total for                                          Change in
In operation since: July 1997                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           24               22                  2              -20
    2        Number of new volunteers trained                                                       376              357             19                -338
    3        Number of media events conducted                                                        52               36             16                  -20
    4        Number of community education events conducted                                         327              176            151                  -25
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           37               17             20                   3
    6        Number of group sessions for beneficiaries led by volunteers                           225              120            105                  -15
    7        Number of beneficiaries who attended group sessions led by volunteers                7,120            3,424           3,696                272
    8        Number of one-on-one sessions held between beneficiaries and volunteers                168               38            130                  92
   7+8       Total number of beneficiaries educated                                               7,288            3,462           3,826                364
    9        Estimated number of people reached by media events                              14,186,149         5,500,000     8,686,149            3,186,149
    10       Estimated number of people reached by community education events                    12,196            5,023           7,173              2,150
    11       Number of complaints received attributable to the project                               71               55             16                  -39
    12       Number of complaints referred for followup                                              63               55                  8              -47
    13       Number of complaints that resulted in some action                                           9             5                  4               -1
    14       Medicare funds recovered attributable to the project                               $13,432           $6,552         $6,880                $328
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                  $0
   15B       Savings to beneficiaries attributable to the project                                $5,355           $5,355             $0              -$5,355
   15C       Other savings attributable to the project                                               $0               $0             $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                        $5,355           $5,355             $0              -$5,355
  14 + 15    Total savings attributable to the project                                          $18,787          $11,907         $6,880              -$5,027




                                                                                                                                              32
A P P E N D        I X       ~     D 



                                                 Colorado – Colorado Division of Insurance, Denver
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               7
             4
                  3
                 -1 

     2
       Number of new volunteers trained                                                        36 
              19 
            17
                     -2 

     3
       Number of media events conducted                                                        21 
               6
             15
                      9

     4
       Number of community education events conducted                                         606 
              17 
           589
                    572 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           74                 
4
            70
                     66
     6
       Number of group sessions for beneficiaries led by volunteers                            72 
              66 
                 6
                -60 

     7
       Number of beneficiaries who attended group sessions led by volunteers                2,081             1,879             202
              -1,677 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                142 
              24 
           118
                     94 

   7+8
       Total number of beneficiaries educated                                               2,223             1,903             320
               -1583 

     9
       Estimated number of people reached by media events                                 657,200           460,300         196,900             -263,400 

    10 
      Estimated number of people reached by community education events                    20,580             1,328          19,252              17,924
    11 
      Number of complaints received attributable to the project                                   9
             4
                  5
                  1

    12 
      Number of complaints referred for followup                                                  5
             1
                  4
                  3

    13 
      Number of complaints that resulted in some action                                           5
             0                   5
                  5

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                $2,261              $339          $1,922              $1,583
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                        $2,261              $339          $1,922              $1,583 

  14 + 15 
   Total savings attributable to the project                                           $2,261              $339          $1,922              $1,583




                                                                                                                                                  33       

A P P E N D        I X       ~     D 



                                      Connecticut – Connecticut Department of Social Services, Hartford
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           19 
               5
             14
                      9

     2
       Number of new volunteers trained                                                        99 
              16 
            83
                     67 

     3
       Number of media events conducted                                                       107 
              17 
            90
                     73 

     4
       Number of community education events conducted                                         664 
              40 
           624
                    584 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           16                 
4
            12
                      8

     6
       Number of group sessions for beneficiaries led by volunteers                            38 
               7
             31
                     24 

     7
       Number of beneficiaries who attended group sessions led by volunteers                1,051               163 
           888
                    725 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                     8
             5
                  3
                 -2 

   7+8
       Total number of beneficiaries educated                                               1,059               168 
           891
                    723 

     9
       Estimated number of people reached by media events                               3,277,137           768,000       2,509,137             1,741,137       

    10 
      Estimated number of people reached by community education events                    29,873             7,774          22,099               14,325
    11 
      Number of complaints received attributable to the project                               11 
               5
                  6
                  1

    12 
      Number of complaints referred for followup                                                  6
             4
                  2
                 -2 

    13 
      Number of complaints that resulted in some action                                           1
             0                   1
                  1

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  34       

A P P E N D       I X       ~     D 



                                Delaware – Delaware Department of Health and Social Services, New Castle
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               4             2                 2                 0
    2        Number of new volunteers trained                                                            7             4                 3                 -1
    3        Number of media events conducted                                                            9             5                 4                 -1
    4        Number of community education events conducted                                          31               13            18                     5
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               6             3                 3                 0
    6        Number of group sessions for beneficiaries led by volunteers                            47               35            12                    -23
    7        Number of beneficiaries who attended group sessions led by volunteers                6,422            3,462          2,960               -502
    8        Number of one-on-one sessions held between beneficiaries and volunteers                242              170            72                    -98
   7+8       Total number of beneficiaries educated                                               6,664            3,632          3,032               -600
    9        Estimated number of people reached by media events                                 350,000          200,000       150,000             -50,000
    10       Estimated number of people reached by community education events                     6,050            1,550          4,500             2,950
    11       Number of complaints received attributable to the project                               36               28                 8                -20
    12       Number of complaints referred for followup                                              19               11                 8                 -3
    13       Number of complaints that resulted in some action                                       36               28                 8                -20
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                    $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                    $0
   15B       Savings to beneficiaries attributable to the project                                $1,583           $1,583            $0             -$1,583
   15C       Other savings attributable to the project                                               $0               $0            $0                    $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                        $1,583           $1,583            $0             -$1,583
  14 + 15    Total savings attributable to the project                                           $1,583           $1,583            $0             -$1,583




                                                                                                                                             35       

A P P E N D        I X       ~     D 



                                         District of Columbia – The AARP Foundation, Washington, DC
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               2
             2
                  0                  -2 

     2
       Number of new volunteers trained                                                            7
             7
                  0                  -7 

     3
       Number of media events conducted                                                            0              0                   0                   0

     4
       Number of community education events conducted                                          13 
              10 
                 3
                 -7
                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               1              1
                                                                                                                         

                  0                  -1
     6
       Number of group sessions for beneficiaries led by volunteers                            67 
              25 
            42
                     17 

     7
       Number of beneficiaries who attended group sessions led by volunteers                2,475             1,015            1,460                    445 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                     4
             0                   4
                  4

   7+8
       Total number of beneficiaries educated                                               2,479             1,015            1,464                    449 

     9
       Estimated number of people reached by media events                                          0              0                   0                   0

    10 
      Estimated number of people reached by community education events                     8,375             3,375            5,000              1,625
    11 
      Number of complaints received attributable to the project                               63 
              10 
            53
                     43 

    12 
      Number of complaints referred for followup                                                  0              0                   0                   0

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  36       

A P P E N D       I X       ~     D 



                                            District of Columbia – Friendship House, Washington, DC
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           10                5                 5              0
    2        Number of new volunteers trained                                                        13                6                 7              1
    3        Number of media events conducted                                                            5             3                 2              -1
    4        Number of community education events conducted                                          27               19                 8             -11
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               8             4                 4              0
    6        Number of group sessions for beneficiaries led by volunteers                            13                8                 5              -3
    7        Number of beneficiaries who attended group sessions led by volunteers                  366              268            98               -170
    8        Number of one-on-one sessions held between beneficiaries and volunteers                 45               40                 5             -35
   7+8       Total number of beneficiaries educated                                                 411              308           103                -205
    9        Estimated number of people reached by media events                                 575,000          375,000       200,000            -175,000
    10       Estimated number of people reached by community education events                    57,475            3,325        54,150             50,825
    11       Number of complaints received attributable to the project                               10               10                 0             -10
    12       Number of complaints referred for followup                                              11               10                 1              -9
    13       Number of complaints that resulted in some action                                           1             0                 1              1
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                 $0




                                                                                                                                             37
A P P E N D       I X       ~     D 



                                        Florida – Tampa Bay Regional Planning Council, St. Petersburg
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               3             2                 1              -1
    2        Number of new volunteers trained                                                        15                8                 7              -1
    3        Number of media events conducted                                                        10                5                 5              0
    4        Number of community education events conducted                                          81               65            16                 -49
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           10                7                 3              -4
    6        Number of group sessions for beneficiaries led by volunteers                            72               51            21                 -30
    7        Number of beneficiaries who attended group sessions led by volunteers                5,665            3,999          1,666             -2,333
    8        Number of one-on-one sessions held between beneficiaries and volunteers                 32                1            31                 30
   7+8       Total number of beneficiaries educated                                               5,697            4,000          1,697             -2303
    9        Estimated number of people reached by media events                               1,184,600          533,300       651,300            118,000
    10       Estimated number of people reached by community education events                     7,255            3,976          3,279               -697
    11       Number of complaints received attributable to the project                               27               13            14                  1
    12       Number of complaints referred for followup                                              12                5                 7              2
    13       Number of complaints that resulted in some action                                           1             1                 0              -1
    14       Medicare funds recovered attributable to the project                               $35,828          $27,668        $8,160            -$19,508
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                          $35,828          $27,668        $8,160            -$19,508




                                                                                                                                             38
A P P E N D       I X       ~     D 



                                                  Georgia – Atlanta Regional Commission, Atlanta
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               3             0                 3              3
    2        Number of new volunteers trained                                                            5             0                 5              5
    3        Number of media events conducted                                                        36               31                 5             -26
    4        Number of community education events conducted                                          63                3            60                 57
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               5             0                 5              5
    6        Number of group sessions for beneficiaries led by volunteers                           273              228            45               -183
    7        Number of beneficiaries who attended group sessions led by volunteers                6,878            5,906           972              -4,934
    8        Number of one-on-one sessions held between beneficiaries and volunteers                981              552           429               -123
   7+8       Total number of beneficiaries educated                                               7,859            6,458          1,401             -5057
    9        Estimated number of people reached by media events                                 224,572          186,302        38,270            -148,032
    10       Estimated number of people reached by community education events                     9,802              212          9,590             9,378
    11       Number of complaints received attributable to the project                               23                9            14                  5
    12       Number of complaints referred for followup                                                  9             4                 5              1
    13       Number of complaints that resulted in some action                                           2             1                 1              0
    14       Medicare funds recovered attributable to the project                                  $338             $338            $0              -$338
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                             $338             $338            $0              -$338




                                                                                                                                             39
A P P E N D       I X       ~     D 



                                               Georgia – Department of Human Resources, Atlanta
                                                                                             Total for                                          Change in
In operation since: July 1999                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           53               28             25                  -3
    2        Number of new volunteers trained                                                       156              118             38                 -80
    3        Number of media events conducted                                                       115               78             37                 -41
    4        Number of community education events conducted                                         635              207            428                221
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                          460              402             58               -344
    6        Number of group sessions for beneficiaries led by volunteers                           305              188            117                 -71
    7        Number of beneficiaries who attended group sessions led by volunteers                7,304            4,694           2,610             -2,084
    8        Number of one-on-one sessions held between beneficiaries and volunteers                296              202             94               -108
   7+8       Total number of beneficiaries educated                                               7,600            4,896           2,704             -2192
    9        Estimated number of people reached by media events                               1,999,248         1,020,801       978,447             -42,354
    10       Estimated number of people reached by community education events                    32,113            7,369         24,744             17,375
    11       Number of complaints received attributable to the project                               60               48             12                 -36
    12       Number of complaints referred for followup                                              18               10                  8              -2
    13       Number of complaints that resulted in some action                                           3             1                  2              1
    14       Medicare funds recovered attributable to the project                                $2,343             $186         $2,157             $1,971
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0             $0                 $0
   15C       Other savings attributable to the project                                               $0               $0             $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0             $0                 $0
  14 + 15    Total savings attributable to the project                                           $2,343             $186         $2,157             $1,971




                                                                                                                                              40
A P P E N D        I X       ~     D 



                                       Guam – Department of Public Health and Social Services, Hagatna
                                                                                              Total for                                            Change in
In operation since: July 2005                                                                                  Jan. – June    July – Dec.
                                                                                               2005 
                                            last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               1
             0                  1
                  1

     2
       Number of new volunteers trained                                                            1
             0                  1
                  1

     3
       Number of media events conducted                                                            3
             0                  3
                  3

     4
       Number of community education events conducted                                              9
             0                  9
                  9

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               1              
0                 1
                  1
     6
       Number of group sessions for beneficiaries led by volunteers                            18 
               0             18
                     18 

     7
       Number of beneficiaries who attended group sessions led by volunteers                  950 
               0            950
                    950 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                101 
               0            101
                    101 

   7+8
       Total number of beneficiaries educated                                               1,051                 0           1,051              1,051 

     9
       Estimated number of people reached by media events                                 150,000                 0        150,000             150,000 

    10 
      Estimated number of people reached by community education events                       770 
               0            770
                    770 

    11 
      Number of complaints received attributable to the project                                   0              0                  0                   0

    12 
      Number of complaints referred for followup                                                  0              0                  0                   0

    13 
      Number of complaints that resulted in some action                                           0              0                  0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0             $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0             $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0             $0                      $0
   15C        Other savings attributable to the project                                               $0                $0             $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0             $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0             $0                      $0




                                                                                                                                                 41       

A P P E N D        I X       ~     D 



                                                Hawaii – Hawaii Executive Office of Aging, Honolulu
                                                                                              Total for                                             Change in
In operation since: July 1997                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               8
             4
                  4
                  0

     2
       Number of new volunteers trained                                                        16 
               5
             11
                      6

     3
       Number of media events conducted                                                        13 
               5
                  8
                  3

     4
       Number of community education events conducted                                          27 
               6
             21
                    15 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               1              
0                  1
                  1
     6
       Number of group sessions for beneficiaries led by volunteers                            55 
              25 
            30
                      5

     7
       Number of beneficiaries who attended group sessions led by volunteers                3,100             1,600            1,500                -100 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                     6
             0                   6
                  6

   7+8
       Total number of beneficiaries educated                                               3,106             1,600            1,506                    -94 

     9
       Estimated number of people reached by media events                                 425,000           200,000         225,000              25,000 

    10 
      Estimated number of people reached by community education events                    11,000             5,000            6,000              1,000
    11 
      Number of complaints received attributable to the project                               48 
              25 
            23
                     -2 

    12 
      Number of complaints referred for followup                                                  2
             0                   2
                  2

    13 
      Number of complaints that resulted in some action                                           2
             0                   2
                  2

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                     $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                     $0
   15C        Other savings attributable to the project                                               $0                $0              $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                     $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                     $0




                                                                                                                                                  42       

A P P E N D        I X       ~     D 



                                                  Idaho – Idaho Medicare Watch Partnership, Boise
                                                                                              Total for                                            Change in
In operation since: July 1999                                                                                 Jan. – June     July – Dec.
                                                                                               2005 
                                            last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           66 
             10 
            56
                     46 

     2
       Number of new volunteers trained                                                       187 
             23 
           164
                    141 

     3
       Number of media events conducted                                                       144 
             29 
           115
                     86 

     4
       Number of community education events conducted                                         462 
            127 
           335
                    208 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                          112                
3
           109
                    106
     6
       Number of group sessions for beneficiaries led by volunteers                           476 
             27 
           449
                    422 

     7
       Number of beneficiaries who attended group sessions led by volunteers               12,005              780 
        11,225              10,445 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers              3,228              759 
          2,469               1,710 

   7+8
       Total number of beneficiaries educated                                              15,233            1,539          13,694               12155 

     9
       Estimated number of people reached by media events                               1,714,856          627,929       1,086,927             458,998 

    10 
      Estimated number of people reached by community education events                    22,761            9,568          13,193                3,625
    11 
      Number of complaints received attributable to the project                              588 
            262 
           326
                     64 

    12 
      Number of complaints referred for followup                                              10 
              3
                  7
                  4

    13 
      Number of complaints that resulted in some action                                           0             0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0               $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0               $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                               $32,357          $23,614          $8,743             -$14,870
   15C        Other savings attributable to the project                                               $0               $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                       $32,357          $23,614          $8,743             -$14,870 

  14 + 15 
   Total savings attributable to the project                                          $32,357          $23,614          $8,743             -$14,870




                                                                                                                                                 43       

A P P E N D        I X       ~     D 



                                                Illinois – Suburban Area Agency on Aging, Oak Park
                                                                                              Total for                                             Change in
In operation since: July 1997                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           37 
              18 
            19
                       1

     2
       Number of new volunteers trained                                                       138 
              56 
            82
                      26 

     3
       Number of media events conducted                                                       136 
              93 
            43
                     -50 

     4
       Number of community education events conducted                                         330 
             143 
           187
                      44 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           55                4
                                                                                                                        
1              14

                                                                                                                                        
                       -27
     6
       Number of group sessions for beneficiaries led by volunteers                           371 
             182 
           189
                       7

     7
       Number of beneficiaries who attended group sessions led by volunteers               12,300             5,344            6,956                1,612
     8
       Number of one-on-one sessions held between beneficiaries and volunteers                216 
               7
            209
                     202 

   7+8
       Total number of beneficiaries educated                                              12,516             5,351            7,165                 1814 

     9
       Estimated number of people reached by media events                              11,057,030          8,893,230      2,163,800             -6,729,430       

    10 
      Estimated number of people reached by community education events                    19,680             6,980          12,700                 5,720
    11 
      Number of complaints received attributable to the project                                   9
             5
                  4
                  -1 

    12 
      Number of complaints referred for followup                                                  7
             5
                  2
                  -3 

    13 
      Number of complaints that resulted in some action                                           5
             2
                  3
                   1

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                       $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                       $0
   15B        Savings to beneficiaries attributable to the project                                  $200              $200              $0                 -$200
   15C        Other savings attributable to the project                                               $0                $0              $0                       $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                          $200              $200              $0                 -$200 

  14 + 15 
   Total savings attributable to the project                                             $200              $200              $0                 -$200




                                                                                                                                                  44        

A P P E N D        I X       ~      D 



                                 Indiana – Indiana Division of Disability, Aging and Rehabilitation, Indianapolis
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           32 
              22 
            10
                    -12 

     2
       Number of new volunteers trained                                                       547 
             107 
           440
                    333 

     3
       Number of media events conducted                                                        21 
               6
             15
                      9

     4
       Number of community education events conducted                                         201 
              93 
           108
                     15 

                                          OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           13                 
2
            11
                      9

     6
       Number of group sessions for beneficiaries led by volunteers                           248 
              79 
           169
                     90 

     7
       Number of beneficiaries who attended group sessions led by volunteers               13,512             2,015          11,497               9,482
     8
       Number of one-on-one sessions held between beneficiaries and volunteers              3,297               252 
          3,045              2,793 

   7+8
       Total number of beneficiaries educated                                              16,809             2,267          14,542               12275 

     9
       Estimated number of people reached by media events                                 990,450             4,800         985,650             980,850 

    10 
      Estimated number of people reached by community education events                    25,468            14,127          11,341               -2,786
    11 
      Number of complaints received attributable to the project                                   1
             0                   1
                  1

    12 
      Number of complaints referred for followup                                                  1
             0                   1
                  1

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  45       

A P P E N D        I X       ~     D 



                                                  Iowa – Iowa Department of Elder Affairs, Waterloo
                                                                                              Total for                                       Change in
In operation since: July 1997                                                                                Jan. – June     July – Dec.
                                                                                               2005 
                                       last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           22 
            12 
            10
                 -2 

     2
       Number of new volunteers trained                                                        33 
            14 
            19
                  5

     3
       Number of media events conducted                                                     5,166           2,095            3,071                976 

     4
       Number of community education events conducted                                         221 
            94 
           127
                 33 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           31              1
                                                                                                                      
2              19

                                                                                                                                      
                    7
     6
       Number of group sessions for beneficiaries led by volunteers                           910 
           314 
           596
                282 

     7
       Number of beneficiaries who attended group sessions led by volunteers               31,525          23,797            7,728         -16,069
     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 69 
            49 
            20
                -29 

   7+8
       Total number of beneficiaries educated                                              31,594          23,846            7,748         -16098 

     9
       Estimated number of people reached by media events                               2,131,210        1,142,908        988,302         -154,606 

    10 
      Estimated number of people reached by community education events                    23,608           7,127          16,481            9,354
    11 
      Number of complaints received attributable to the project                              122 
            49 
            73
                 24 

    12 
      Number of complaints referred for followup                                              32 
            15 
            17
                  2

    13 
      Number of complaints that resulted in some action                                       25 
            12 
            13
                  1

    14 
      Medicare funds recovered attributable to the project                                    $0              $0              $0                  $0
   15A        Medicaid funds recovered attributable to the project                                    $0              $0              $0                  $0
   15B        Savings to beneficiaries attributable to the project                                    $0              $0              $0                  $0
   15C        Other savings attributable to the project                                               $0              $0              $0                  $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0              $0              $0                  $0 

  14 + 15 
   Total savings attributable to the project                                               $0              $0              $0                  $0




                                                                                                                                            46       

A P P E N D        I X      ~     D 



                                                         Kansas – Department on Aging, Topeka*
                                                                                              Total for                                         Change in
In operation since: July 2003                                                                                 Jan. – June   July – Dec.
                                                                                               2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                                0             0                 0              0
    2        Number of new volunteers trained                                                             0             0                 0              0
    3        Number of media events conducted                                                             4             4                 0              -4
    4        Number of community education events conducted                                               4             1                 3              2
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                                0             0                 0              0
    6        Number of group sessions for beneficiaries led by volunteers                                 0             0                 0              0
    7        Number of beneficiaries who attended group sessions led by volunteers                        0             0                 0              0
    8        Number of one-on-one sessions held between beneficiaries and volunteers                  24               24                 0             -24
   7+8       Total number of beneficiaries educated                                                   24               24                 0             -24
    9        Estimated number of people reached by media events                                   22,000           22,000                 0         -22,000
    10       Estimated number of people reached by community education events                        550              200           350                150
    11       Number of complaints received attributable to the project                                    5             0                 5              5
    12       Number of complaints referred for followup                                                   4             0                 4              4
    13       Number of complaints that resulted in some action                                            0             0                 0              0
    14       Medicare funds recovered attributable to the project                                     $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                     $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                     $0               $0            $0                 $0
   15C       Other savings attributable to the project                                                $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                             $0               $0            $0                 $0
  14 + 15   Total savings attributable to the project                                                 $0               $0            $0                 $0
*Kansas Department of Aging replaced Kansas Via Christi of Wichita as the SMP in July 2005.




                                                                                                                                              47
A P P E N D       I X       ~     D 



                             Kentucky – Kentucky Association of Senior Service Corps Programs, Louisville
                                                                                             Total for                                          Change in
In operation since: July 2001                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           22               12             10                  -2
    2        Number of new volunteers trained                                                        55               45             10                 -35
    3        Number of media events conducted                                                       194               97             97                  0
    4        Number of community education events conducted                                         206              103            103                  0
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           47               42                  5             -37
    6        Number of group sessions for beneficiaries led by volunteers                           310              132            178                 46
    7        Number of beneficiaries who attended group sessions led by volunteers               12,228            4,461           7,767              3,306
    8        Number of one-on-one sessions held between beneficiaries and volunteers              7,172            2,641           4,531             1,890
   7+8       Total number of beneficiaries educated                                              19,400            7,102         12,298               5196
    9        Estimated number of people reached by media events                               3,700,797         1,700,797     2,000,000            299,203
    10       Estimated number of people reached by community education events                    11,125            5,289           5,836               547
    11       Number of complaints received attributable to the project                               35               34                  1             -33
    12       Number of complaints referred for followup                                                  4             3                  1              -2
    13       Number of complaints that resulted in some action                                           2             1                  1              0
    14       Medicare funds recovered attributable to the project                                $1,153             $665           $488              -$177
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0             $0                 $0
   15C       Other savings attributable to the project                                               $0               $0             $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0             $0                 $0
  14 + 15    Total savings attributable to the project                                           $1,153             $665           $488              -$177




                                                                                                                                              48
A P P E N D       I X       ~     D 



                                          Louisiana – Vernon Parish Council on Aging, Inc., Leesville
                                                                                             Total for                                          Change in
In operation since: July 2000                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               4             3                  1              -2
    2        Number of new volunteers trained                                                       118               95             23                 -72
    3        Number of media events conducted                                                        71               44             27                 -17
    4        Number of community education events conducted                                          84               78                  6             -72
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           49               38             11                 -27
    6        Number of group sessions for beneficiaries led by volunteers                            63               54                  9             -45
    7        Number of beneficiaries who attended group sessions led by volunteers                1,301             1,112           189                -923
    8        Number of one-on-one sessions held between beneficiaries and volunteers                442              315            127               -188
   7+8       Total number of beneficiaries educated                                               1,743            1,427            316              -1111
    9        Estimated number of people reached by media events                                 152,200          102,200         50,000             -52,200
    10       Estimated number of people reached by community education events                     4,140            4,019            121              -3,898
    11       Number of complaints received attributable to the project                               22               11             11                  0
    12       Number of complaints referred for followup                                                  4             1                  3              2
    13       Number of complaints that resulted in some action                                           3             1                  2              1
    14       Medicare funds recovered attributable to the project                                    $0               $0             $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                 $0
   15B       Savings to beneficiaries attributable to the project                                $1,152             $925           $227              -$698
   15C       Other savings attributable to the project                                               $0               $0             $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                        $1,152             $925           $227              -$698
  14 + 15    Total savings attributable to the project                                           $1,152             $925           $227              -$698




                                                                                                                                              49
A P P E N D        I X       ~     D 



                     Maine – Maine Department of Human Services' Bureau of Elder and Adult Services, Augusta
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           29 
               9
             20
                     11 

     2
       Number of new volunteers trained                                                       117 
              17 
           100
                     83 

     3
       Number of media events conducted                                                       189 
              94 
            95
                      1

     4
       Number of community education events conducted                                         227 
              98 
           129
                     31 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           31                 
1
            30
                     29
     6
       Number of group sessions for beneficiaries led by volunteers                           217 
              94 
           123
                     29 

     7
       Number of beneficiaries who attended group sessions led by volunteers                4,380             2,399            1,981                -418 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers              1,769               710 
          1,059                    349 

   7+8
       Total number of beneficiaries educated                                               6,149             3,109            3,040                    -69 

     9
       Estimated number of people reached by media events                               2,083,395          1,144,895        938,500             -206,395 

    10 
      Estimated number of people reached by community education events                    13,728             7,235            6,493                -742 

    11 
      Number of complaints received attributable to the project                               10 
               0              10
                     10 

    12 
      Number of complaints referred for followup                                              11 
               1
             10
                      9

    13 
      Number of complaints that resulted in some action                                           6
             1
                  5
                  4

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  50       

A P P E N D       I X       ~     D 



                                                  Maryland – Maryland Office on Aging, Baltimore
                                                                                             Total for                                         Change in
In operation since: July 1997                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           73               25            48                    23
    2        Number of new volunteers trained                                                     1,028              456           572                    116
    3        Number of media events conducted                                                       132               38            94                     56
    4        Number of community education events conducted                                         209              181            28               -153
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           15                0            15                     15
    6        Number of group sessions for beneficiaries led by volunteers                           337                0           337                    337
    7        Number of beneficiaries who attended group sessions led by volunteers               14,305                0        14,305             14,305
    8        Number of one-on-one sessions held between beneficiaries and volunteers              3,629            1,190          2,439             1,249
   7+8       Total number of beneficiaries educated                                              17,934            1,190        16,744              15554
    9        Estimated number of people reached by media events                                 800,347          183,997       616,350            432,353
    10       Estimated number of people reached by community education events                    13,985            5,801          8,184             2,383
    11       Number of complaints received attributable to the project                              436              403            33               -370
    12       Number of complaints referred for followup                                              13               13                 0                -13
    13       Number of complaints that resulted in some action                                           0             0                 0                 0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                     $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                     $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                     $0
   15C       Other savings attributable to the project                                               $0               $0            $0                     $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                     $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                     $0




                                                                                                                                             51       

A P P E N D        I X       ~     D 



                                             Massachusetts – Elder Services of Merrimack, Lawrence
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               7
             2
                  5
                  3

     2
       Number of new volunteers trained                                                        73 
              18 
            55
                     37 

     3
       Number of media events conducted                                                       539 
             179 
           360
                    181 

     4
       Number of community education events conducted                                       1,054               334 
           720
                    386 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               3              
0                  3
                  3
     6
       Number of group sessions for beneficiaries led by volunteers                           447 
             115 
           332
                    217 

     7
       Number of beneficiaries who attended group sessions led by volunteers                       0              0                   0                   0

     8
       Number of one-on-one sessions held between beneficiaries and volunteers             14,218             5,676            8,542              2,866 

   7+8
       Total number of beneficiaries educated                                              14,218             5,676            8,542               2866 

     9
       Estimated number of people reached by media events                               6,250,619          3,608,672      2,641,947             -966,725        

    10 
      Estimated number of people reached by community education events                    73,446            12,949          60,497              47,548
    11 
      Number of complaints received attributable to the project                            1,044               382 
           662
                    280 

    12 
      Number of complaints referred for followup                                                  0              0                   0                   0

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  52       

A P P E N D        I X       ~     D 



                                    Michigan – Area Agencies on Aging Association of Michigan, Lansing
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           94 
              11 
            83
                     72 

     2
       Number of new volunteers trained                                                     1,153               226 
           927
                    701 

     3
       Number of media events conducted                                                            8
             3
                  5
                  2

     4
       Number of community education events conducted                                          93 
               6
             87
                     81 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                          458                 
0            458
                    458
     6
       Number of group sessions for beneficiaries led by volunteers                            45 
              17 
            28
                     11 

     7
       Number of beneficiaries who attended group sessions led by volunteers                1,563               654 
           909
                    255 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers              1,481                27 
          1,454               1,427 

   7+8
       Total number of beneficiaries educated                                               3,044               681 
          2,363               1682 

     9
       Estimated number of people reached by media events                                 394,868           215,000         179,868              -35,132 

    10 
      Estimated number of people reached by community education events                     6,835               799 
          6,036               5,237 

    11 
      Number of complaints received attributable to the project                                   9
             0                   9
                  9

    12 
      Number of complaints referred for followup                                                  0              0                   0                   0

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  53       

A P P E N D       I X       ~     D 



                                        Michigan – Monroe County Opportunity Program, Inc., Monroe
                                                                                             Total for                                         Change in
In operation since: July 2005                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               1             0                 1                 1
    2        Number of new volunteers trained                                                            7             0                 7                 7
    3        Number of media events conducted                                                            5             0                 5                 5
    4        Number of community education events conducted                                              8             0                 8                 8
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               7             0                 7                  7
    6        Number of group sessions for beneficiaries led by volunteers                                2             0                 2                 2
    7        Number of beneficiaries who attended group sessions led by volunteers                   34                0            34                    34
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     8             0                 8                 8
   7+8       Total number of beneficiaries educated                                                  42                0            42                    42
    9        Estimated number of people reached by media events                                 147,000                0       147,000            147,000
    10       Estimated number of people reached by community education events                       975                0           975                    975
    11       Number of complaints received attributable to the project                                   1             0                 1                 1
    12       Number of complaints referred for followup                                                  0             0                 0                  0
    13       Number of complaints that resulted in some action                                           0             0                 0                 0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                     $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                     $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                    $0
   15C       Other savings attributable to the project                                               $0               $0            $0                     $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                    $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                     $0




                                                                                                                                             54       

A P P E N D        I X       ~     D 



                                                   Minnesota – Minnesota Board of Aging, St. Paul
                                                                                              Total for                                       Change in
In operation since: July 1997                                                                                Jan. – June     July – Dec.
                                                                                               2005 
                                       last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                          147 
           132 
            15
           -117 

     2
       Number of new volunteers trained                                                       310 
            91 
           219
                128 

     3
       Number of media events conducted                                                        17 
             0              17
                 17 

     4
       Number of community education events conducted                                         230 
            15 
           215
                200 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                          136              
18            118

                                                                                                                                      
                  100
     6
       Number of group sessions for beneficiaries led by volunteers                           136 
            18 
           118
                100 

     7
       Number of beneficiaries who attended group sessions led by volunteers                7,684             150 
          7,534          7,384 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 71 
            32 
            39
                  7

   7+8
       Total number of beneficiaries educated                                               7,755             182 
          7,573           7391 

     9
       Estimated number of people reached by media events                                  72,485               0          72,485          72,485 

    10 
      Estimated number of people reached by community education events                    17,577             248 
        17,329          17,081 

    11 
      Number of complaints received attributable to the project                               84 
            47 
            37
                -10 

    12 
      Number of complaints referred for followup                                              50 
            24 
            26
                  2

    13 
      Number of complaints that resulted in some action                                       27 
            16 
            11
                 -5 

    14 
      Medicare funds recovered attributable to the project                                  $216            $216              $0           -$216
   15A        Medicaid funds recovered attributable to the project                                    $0              $0              $0                  $0
   15B        Savings to beneficiaries attributable to the project                               $11,254          $4,344          $6,910          $2,566
   15C        Other savings attributable to the project                                               $0              $0              $0                  $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                       $11,254          $4,344          $6,910          $2,566 

  14 + 15 
   Total savings attributable to the project                                          $11,470          $4,560          $6,910          $2,349




                                                                                                                                            55       

A P P E N D       I X       ~     D 



                                     Mississippi – Mississippi Department of Human Services, Jackson
                                                                                             Total for                                         Change in
In operation since: July 2000                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           28                6            22                 16
    2        Number of new volunteers trained                                                        45               19            26                  7
    3        Number of media events conducted                                                     2,402            1,009          1,393               384
    4        Number of community education events conducted                                         135               83            52                 -31
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           30               19            11                  -8
    6        Number of group sessions for beneficiaries led by volunteers                            95               62            33                 -29
    7        Number of beneficiaries who attended group sessions led by volunteers                3,205            2,227           978              -1,249
    8        Number of one-on-one sessions held between beneficiaries and volunteers              1,987              998           989                  -9
   7+8       Total number of beneficiaries educated                                               5,192            3,225          1,967             -1258
    9        Estimated number of people reached by media events                                 470,176          280,052       190,124             -89,928
    10       Estimated number of people reached by community education events                    85,206            8,962        76,244             67,282
    11       Number of complaints received attributable to the project                            3,731               23          3,708             3,685
    12       Number of complaints referred for followup                                                  2             0                 2              2
    13       Number of complaints that resulted in some action                                       18               18                 0             -18
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                  $298             $298            $0              -$298
   15C       Other savings attributable to the project                                              $10               $0           $10                $10
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                          $308             $298           $10              -$288
  14 + 15    Total savings attributable to the project                                             $308             $298           $10              -$288




                                                                                                                                             56
A P P E N D       I X       ~     D 



                                           Missouri – District III Area Agency on Aging, Warrensburg
                                                                                             Total for                                         Change in
In operation since: July 1997                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               5             4                 1                 -3
    2        Number of new volunteers trained                                                        37               32                 5                -27
    3        Number of media events conducted                                                        15                8                 7                 -1
    4        Number of community education events conducted                                          49               15            34                     19
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           37               32                 5                -27
    6        Number of group sessions for beneficiaries led by volunteers                           121               54            67                     13
    7        Number of beneficiaries who attended group sessions led by volunteers                3,148              860          2,288             1,428
    8        Number of one-on-one sessions held between beneficiaries and volunteers                717               82           635                    553
   7+8       Total number of beneficiaries educated                                               3,865              942          2,923              1981
    9        Estimated number of people reached by media events                                 160,000           25,000       135,000            110,000
    10       Estimated number of people reached by community education events                    12,500            2,500        10,000              7,500
    11       Number of complaints received attributable to the project                               17                5            12                      7
    12       Number of complaints referred for followup                                                  9             2                 7                  5
    13       Number of complaints that resulted in some action                                           0             0                 0                  0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                     $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                     $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                     $0
   15C       Other savings attributable to the project                                               $0               $0            $0                     $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                     $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                     $0




                                                                                                                                             57       

A P P E N D        I X       ~     D 



                                                    Montana – Missoula Aging Services, Missoula
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           17 
               5
             12
                      7

     2
       Number of new volunteers trained                                                        63 
               5
             58
                     53 

     3
       Number of media events conducted                                                     5,270             5,001             269
              -4,732
     4
       Number of community education events conducted                                         153 
              65 
            88
                     23 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           11                 
1
            10
                      9

     6
       Number of group sessions for beneficiaries led by volunteers                           152 
              53 
            99
                     46 

     7
       Number of beneficiaries who attended group sessions led by volunteers                3,745             1,226            2,519               1,293
     8
       Number of one-on-one sessions held between beneficiaries and volunteers              1,549               499 
          1,050                    551 

   7+8
       Total number of beneficiaries educated                                               5,294             1,725            3,569               1844 

     9
       Estimated number of people reached by media events                               1,012,426           615,400         397,026             -218,374 

    10 
      Estimated number of people reached by community education events                     6,885             3,137            3,748                    611 

    11 
      Number of complaints received attributable to the project                               55 
              45 
            10
                    -35 

    12 
      Number of complaints referred for followup                                                  7
             1
                  6
                  5

    13 
      Number of complaints that resulted in some action                                           2
             0                   2
                  2

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                $1,676                $0          $1,676              $1,676
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                        $1,676                $0          $1,676              $1,676 

  14 + 15 
   Total savings attributable to the project                                           $1,676                $0          $1,676              $1,676




                                                                                                                                                  58       

A P P E N D       I X       ~     D 



                                 Nebraska – Nebraska Department of Health and Human Services, Lincoln
                                                                                             Total for                                         Change in
In operation since: July 2000                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           17               12                 5                 -7
    2        Number of new volunteers trained                                                        66               50            16                    -34
    3        Number of media events conducted                                                        38               23            15                     -8
    4        Number of community education events conducted                                         140               69            71                     2
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           26               18                 8                -10
    6        Number of group sessions for beneficiaries led by volunteers                           209               50           159                    109
    7        Number of beneficiaries who attended group sessions led by volunteers                9,832            1,254          8,578              7,324
    8        Number of one-on-one sessions held between beneficiaries and volunteers                235              164            71                    -93
   7+8       Total number of beneficiaries educated                                              10,067            1,418          8,649              7231
    9        Estimated number of people reached by media events                               1,088,519          429,195       659,324            230,129
    10       Estimated number of people reached by community education events                    92,847           13,791        79,056             65,265
    11       Number of complaints received attributable to the project                               63               12            51                    39
    12       Number of complaints referred for followup                                              11                6                 5                 -1
    13       Number of complaints that resulted in some action                                           4             4                 0                 -4
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                     $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                     $0
   15B       Savings to beneficiaries attributable to the project                                  $235              $15          $220               $205
   15C       Other savings attributable to the project                                               $0               $0            $0                     $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                          $235              $15          $220               $205
  14 + 15    Total savings attributable to the project                                             $235              $15          $220               $205




                                                                                                                                             59       

A P P E N D       I X       ~     D 



                                             Nevada – Nevada Division of Aging Services, Las Vegas
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               1             1                 0              -1
    2        Number of new volunteers trained                                                            2             2                 0              -2
    3        Number of media events conducted                                                            8             8                 0              -8
    4        Number of community education events conducted                                          35               35                 0             -35
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               3             3                 0              -3
    6        Number of group sessions for beneficiaries led by volunteers                            13               13                 0             -13
    7        Number of beneficiaries who attended group sessions led by volunteers                  117              117                 0           -117
    8        Number of one-on-one sessions held between beneficiaries and volunteers                241              241                 0           -241
   7+8       Total number of beneficiaries educated                                                 358              358                 0           -358
    9        Estimated number of people reached by media events                                   4,500            4,500                 0          -4,500
    10       Estimated number of people reached by community education events                     3,870            3,870                 0          -3,870
    11       Number of complaints received attributable to the project                               45               45                 0             -45
    12       Number of complaints referred for followup                                                  4             4                 0              -4
    13       Number of complaints that resulted in some action                                           0             0                 0              0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                 $0




                                                                                                                                             60
A P P E N D       I X       ~     D 



                           New Hampshire – New Hampshire Division of Elderly and Adult Services, Concord
                                                                                             Total for                                         Change in
In operation since: July 1997                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           12                3                 9                  6
    2        Number of new volunteers trained                                                        65               32            33                      1
    3        Number of media events conducted                                                        21                6            15                      9
    4        Number of community education events conducted                                         134               32           102                    70
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           23               17                 6                -11
    6        Number of group sessions for beneficiaries led by volunteers                            36                7            29                     22
    7        Number of beneficiaries who attended group sessions led by volunteers                  782              149           633                    484
    8        Number of one-on-one sessions held between beneficiaries and volunteers              1,712            1,548           164              -1,384
   7+8       Total number of beneficiaries educated                                               2,494            1,697           797               -900
    9        Estimated number of people reached by media events                                 565,000          220,000       345,000            125,000
    10       Estimated number of people reached by community education events                     4,535              880          3,655             2,775
    11       Number of complaints received attributable to the project                              112                3           109                    106
    12       Number of complaints referred for followup                                              23                1            22                     21
    13       Number of complaints that resulted in some action                                           4             1                 3                 2
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                     $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                     $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                     $0
   15C       Other savings attributable to the project                                               $0               $0            $0                     $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                     $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                     $0




                                                                                                                                             61       

A P P E N D        I X       ~     D 



                          New Jersey – Jewish Family & Vocational Services of Middlesex County, Inc., Edison
                                                                                              Total for                                             Change in
In operation since: July 2001                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               2
             0                   2
                  2

     2
       Number of new volunteers trained                                                            9
             0                   9
                  9

     3
       Number of media events conducted                                                        89 
               4
             85
                     81 

     4
       Number of community education events conducted                                          79 
              39 
            40
                      1

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               5              
0                  5
                  5
     6
       Number of group sessions for beneficiaries led by volunteers                                5
             0                   5
                  5

     7
       Number of beneficiaries who attended group sessions led by volunteers                  148 
               0             148
                    148 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 10 
               0              10
                     10 

   7+8
       Total number of beneficiaries educated                                                 158 
               0             158
                    158 

     9
       Estimated number of people reached by media events                               3,725,305            27,350       3,697,955             3,670,605       

    10 
      Estimated number of people reached by community education events                    10,414             5,370            5,044                -326 

    11 
      Number of complaints received attributable to the project                                   2
             1
                  1
                  0

    12 
      Number of complaints referred for followup                                                  1
             1
                  0                  -1 

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                   $72                $0             $72                     $72
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                $2,500                $0          $2,500               $2,500
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                        $2,500                $0          $2,500               $2,500 

  14 + 15 
   Total savings attributable to the project                                           $2,572                $0          $2,572               $2,572




                                                                                                                                                  62       

A P P E N D        I X       ~     D 



                                       New Jersey – Diabeticos Hispanos/PERFIL Latino TV Inc., Millville
                                                                                              Total for                                            Change in
In operation since: July 2005                                                                                  Jan. – June    July – Dec.
                                                                                               2005 
                                            last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               5
             0                  5
                 5

     2
       Number of new volunteers trained                                                            7
             0                  7
                 7

     3
       Number of media events conducted                                                            8
             0                  8
                 8

     4
       Number of community education events conducted                                          22 
               0             22
                    22 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               3              
0                 3
                 3
     6
       Number of group sessions for beneficiaries led by volunteers                                9
             0                  9
                 9

     7
       Number of beneficiaries who attended group sessions led by volunteers                  325 
               0            325
                     0

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 14 
               0             14
                    14 

   7+8
       Total number of beneficiaries educated                                                 339 
               0            339
                    14 

     9
       Estimated number of people reached by media events                                 126,225                 0        126,225             126,225 

    10 
      Estimated number of people reached by community education events                     1,533                 0           1,533              1,533 

    11 
      Number of complaints received attributable to the project                                   0              0                  0                  0

    12 
      Number of complaints referred for followup                                                  0              0                  0                  0

    13 
      Number of complaints that resulted in some action                                           0              0                  0                  0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0             $0                     $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0             $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0             $0                     $0
   15C        Other savings attributable to the project                                               $0                $0             $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0             $0                     $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0             $0                     $0




                                                                                                                                                 63       

A P P E N D        I X       ~     D 



                                           New Mexico – New Mexico State Agency on Aging, Santa Fe
                                                                                              Total for                                       Change in
In operation since: July 1999                                                                                Jan. - June     July – Dec.
                                                                                               2005 
                                       last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           82 
            34 
            48
                 14 

     2
       Number of new volunteers trained                                                       200 
           100 
           100
                  0

     3
       Number of media events conducted                                                        37 
            12 
            25
                 13 

     4
       Number of community education events conducted                                         171 
            10 
           161
                151 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           30              1
                                                                                                                      
0              20

                                                                                                                                      
                   10
     6
       Number of group sessions for beneficiaries led by volunteers                            88 
            48 
            40
                 -8 

     7
       Number of beneficiaries who attended group sessions led by volunteers                2,414            1,614            800
            -814 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers             45,543          17,634          27,909          10,275 

   7+8
       Total number of beneficiaries educated                                              47,957          19,248          28,709            9461 

     9
       Estimated number of people reached by media events                                 860,910         251,310         609,600         358,290 

    10 
      Estimated number of people reached by community education events                    17,452            4,345         13,107           8,762
    11 
      Number of complaints received attributable to the project                           18,655            9,265           9,390                125 

    12 
      Number of complaints referred for followup                                              79 
            27 
            52
                 25 

    13 
      Number of complaints that resulted in some action                                       38 
            27 
            11
                -16 

    14 
      Medicare funds recovered attributable to the project                                    $0              $0              $0                  $0
   15A        Medicaid funds recovered attributable to the project                                    $0              $0              $0                  $0
   15B        Savings to beneficiaries attributable to the project                               $32,956          $4,350         $28,606         $24,256
   15C        Other savings attributable to the project                                               $0              $0              $0                  $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                       $32,956          $4,350         $28,606         $24,256 

  14 + 15 
   Total savings attributable to the project                                          $32,956          $4,350         $28,606         $24,256




                                                                                                                                            64       

A P P E N D       I X       ~     D 



                                             New York – New York State Office for the Aging, Albany
                                                                                             Total for                                   Change in
In operation since: July 1997                                                                             Jan. – June   July – Dec.
                                                                                              2005                                     last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                          120            41            79                  38
    2        Number of new volunteers trained                                                     1,348           698           650                 -48
    3        Number of media events conducted                                                        44            26            18                  -8
    4        Number of community education events conducted                                         139            41            98                  57
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           35            24            11                 -13
    6        Number of group sessions for beneficiaries led by volunteers                           139            63            76                  13
    7        Number of beneficiaries who attended group sessions led by volunteers                7,473         2,085          5,388           3,303
    8        Number of one-on-one sessions held between beneficiaries and volunteers                707           237           470                 233
   7+8       Total number of beneficiaries educated                                               8,180         2,322          5,858           3536
    9        Estimated number of people reached by media events                               1,075,000       435,000       640,000         205,000
    10       Estimated number of people reached by community education events                    38,253        16,352        21,901           5,549
    11       Number of complaints received attributable to the project                              519           217           302                  85
    12       Number of complaints referred for followup                                              88            53            35                 -18
    13       Number of complaints that resulted in some action                                      238           203            35            -168
    14       Medicare funds recovered attributable to the project                              $100,201       $36,505       $63,695         $27,190
   15A       Medicaid funds recovered attributable to the project                                    $0            $0            $0                  $0
   15B       Savings to beneficiaries attributable to the project                               $1,604$        $1,604            $0          -$1,604
   15C       Other savings attributable to the project                                               $0            $0            $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                        $1,604        $1,604            $0          -$1,604
  14 + 15    Total savings attributable to the project                                         $101,805       $38,110       $63,695         $25,586




                                                                                                                                       65       

A P P E N D        I X       ~     D 



                                                 North Carolina – Department of Insurance, Raleigh
                                                                                              Total for                                             Change in
In operation since: July 2003                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           10 
               4
                  6
                  2

     2
       Number of new volunteers trained                                                       121 
             109 
            12
                    -97 

     3
       Number of media events conducted                                                        23 
              16 
                 7
                 -9 

     4
       Number of community education events conducted                                          91 
              60 
            31
                    -29
                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           13                 
8
                 5
                 -3
     6
       Number of group sessions for beneficiaries led by volunteers                            53 
              23 
            30
                      7

     7
       Number of beneficiaries who attended group sessions led by volunteers                1,477               627 
           850
                    223 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                531 
             102 
           429
                    327 

   7+8
       Total number of beneficiaries educated                                               2,008               729 
          1,279                    550 

     9
       Estimated number of people reached by media events                                 472,658            40,072         432,586             392,514 

    10 
      Estimated number of people reached by community education events                     9,651             5,138            4,513                -625 

    11 
      Number of complaints received attributable to the project                               81 
              34 
            47
                     13 

    12 
      Number of complaints referred for followup                                              29 
              10 
            19
                      9

    13 
      Number of complaints that resulted in some action                                           2
             2
                  0                  -2 

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  66       

A P P E N D        I X       ~     D 



                                         North Dakota – Legal Assistance of North Dakota, Inc., Bismarck
                                                                                              Total for                                             Change in
In operation since: July 2003                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               4
             2
                  2
                 0

     2
       Number of new volunteers trained                                                        16 
               4
             12
                     8

     3
       Number of media events conducted                                                        49 
              17 
            32
                    15 

     4
       Number of community education events conducted                                          33 
              15 
            18
                     3

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               8              6
                                                                                                                         

                  2
                -4
     6
       Number of group sessions for beneficiaries led by volunteers                            42 
              25 
            17
                    -8 

     7
       Number of beneficiaries who attended group sessions led by volunteers                1,963             1,668             295
              -1,373 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 24 
               0              24
                    24 

   7+8
       Total number of beneficiaries educated                                               1,987             1,668             319
              -1349 

     9
       Estimated number of people reached by media events                                 750,629           122,544         628,085             505,541 

    10 
      Estimated number of people reached by community education events                     5,979             3,810            2,169              -1,641
    11 
      Number of complaints received attributable to the project                                   1
             0                   1
                 1

    12 
      Number of complaints referred for followup                                                  1
             0                   1
                 1

    13 
      Number of complaints that resulted in some action                                           1
             0                   1
                 1

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                     $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                     $0
   15C        Other savings attributable to the project                                               $0                $0              $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                     $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                     $0




                                                                                                                                                  67       

A P P E N D       I X       ~     D 



                                              Ohio – Central Ohio Area Agency on Aging, Columbus
                                                                                             Total for                                         Change in
In operation since: July 2002 – closed June 2005                                                             Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               0             0                 0              0
    2        Number of new volunteers trained                                                            0             0                 0              0
    3        Number of media events conducted                                                       130              130                 0           -130
    4        Number of community education events conducted                                          50               50                 0             -50
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               9             9                 0              -9
    6        Number of group sessions for beneficiaries led by volunteers                            22               22                 0             -22
    7        Number of beneficiaries who attended group sessions led by volunteers                  372              372                 0           -372
    8        Number of one-on-one sessions held between beneficiaries and volunteers                156              156                 0           -156
   7+8       Total number of beneficiaries educated                                                 528              528                 0           -528
    9        Estimated number of people reached by media events                                 200,000          200,000                 0        -200,000
    10       Estimated number of people reached by community education events                     4,700            4,700                 0          -4,700
    11       Number of complaints received attributable to the project                                   6             6                 0              -6
    12       Number of complaints referred for followup                                                  2             2                 0              -2
    13       Number of complaints that resulted in some action                                           1             1                 0              -1
    14       Medicare funds recovered attributable to the project                                    $0                0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0                0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0                0            $0                 $0
   15C       Other savings attributable to the project                                               $0                0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0                0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0                0            $0                 $0




                                                                                                                                             68
A P P E N D        I X       ~     D 



                                                            Ohio – Pro Seniors, Inc., Cincinnati
                                                                                              Total for                                             Change in
In operation since: July 2002                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               1
             0                   1
                    1

     2
       Number of new volunteers trained                                                            6
             0                   6
                    6

     3
       Number of media events conducted                                                       627 
             462 
           165
                 -297 

     4
       Number of community education events conducted                                          52 
              25 
            27
                        2

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               5              
1
                 4
                    3
     6
       Number of group sessions for beneficiaries led by volunteers                            74 
              24 
            50
                       26 

     7
       Number of beneficiaries who attended group sessions led by volunteers                3,867             1,756            2,111                      355 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 12 
               6
                  6
                    0

   7+8
       Total number of beneficiaries educated                                               3,879             1,762            2,117                      355 

     9
       Estimated number of people reached by media events                               5,790,245          4,009,213      1,781,032             -2,228,181        

    10 
      Estimated number of people reached by community education events                     4,938             4,156             782
                -3,374 

    11 
      Number of complaints received attributable to the project                               14 
              10 
                 4
                   -6 

    12 
      Number of complaints referred for followup                                                  5
             4
                  1
                   -3 

    13 
      Number of complaints that resulted in some action                                           0              0                   0                     0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                        $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                        $0
   15B        Savings to beneficiaries attributable to the project                                   $97               $97              $0                  -$97
   15C        Other savings attributable to the project                                               $0                $0              $0                        $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                           $97               $97              $0                  -$97 

  14 + 15 
   Total savings attributable to the project                                              $97               $97              $0                  -$97




                                                                                                                                                  69         

A P P E N D       I X       ~     D 



                                   Oklahoma – State of Oklahoma Insurance Department, Oklahoma City
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               2             1                 1                 0
    2        Number of new volunteers trained                                                        36               10            26                    16
    3        Number of media events conducted                                                            1             0                 1                  1
    4        Number of community education events conducted                                          27                6            21                    15
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               2             0                 2                  2
    6        Number of group sessions for beneficiaries led by volunteers                            30               22                 8                -14
    7        Number of beneficiaries who attended group sessions led by volunteers                1,460              549           911                    362
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     2             2                 0                 -2
   7+8       Total number of beneficiaries educated                                               1,462              551           911                    360
    9        Estimated number of people reached by media events                                  75,984                0        75,984             75,984
    10       Estimated number of people reached by community education events                   125,688            8,611       117,077            108,466
    11       Number of complaints received attributable to the project                               25               12            13                     1
    12       Number of complaints referred for followup                                              10                6                 4                 -2
    13       Number of complaints that resulted in some action                                           0             0                 0                 0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                     $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                     $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                    $0
   15C       Other savings attributable to the project                                               $0               $0            $0                     $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                    $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                     $0




                                                                                                                                             70       

A P P E N D       I X       ~     D 



                                                  Oregon – Senior Medicare Patrol Project, Salem
                                                                                             Total for                                         Change in
In operation since: July 1999                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                          113               22            91                 69
    2        Number of new volunteers trained                                                       585              128           457                329
    3        Number of media events conducted                                                       164                7           157                150
    4        Number of community education events conducted                                         371               89           282                193
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                          342                0           342                342
    6        Number of group sessions for beneficiaries led by volunteers                            74               74                 0             -74
    7        Number of beneficiaries who attended group sessions led by volunteers                2,021            2,021                 0          -2,021
    8        Number of one-on-one sessions held between beneficiaries and volunteers              3,891            3,076           815              -2,261
   7+8       Total number of beneficiaries educated                                               5,912            5,097           815              -4282
    9        Estimated number of people reached by media events                                 134,992            7,292       127,700            120,408
    10       Estimated number of people reached by community education events                    19,172            4,216        14,956             10,740
    11       Number of complaints received attributable to the project                               26               15            11                  -4
    12       Number of complaints referred for followup                                                  6             3                 3              0
    13       Number of complaints that resulted in some action                                           0             0                 0              0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                 $0




                                                                                                                                             71
A P P E N D        I X       ~     D 



                                      Oregon – Multnomah County Aging & Disability Services, Portland
                                                                                              Total for                                            Change in
In operation since: July 2005                                                                                  Jan. – June    July – Dec.
                                                                                               2005 
                                            last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               1
             0                  1
                 1

     2
       Number of new volunteers trained                                                        25 
               0             25
                    25 

     3
       Number of media events conducted                                                            5
             0                  5
                 5

     4
       Number of community education events conducted                                              5
             0                  5
                 5

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               7              
0                 7
                 7
     6
       Number of group sessions for beneficiaries led by volunteers                                5
             0                  5
                 5

     7
       Number of beneficiaries who attended group sessions led by volunteers                   74 
               0             74
                    74 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                     0              0                  0                  0

   7+8
       Total number of beneficiaries educated                                                  74 
               0             74
                    74 

     9
       Estimated number of people reached by media events                                 669,550                 0        669,550             669,550 

    10 
      Estimated number of people reached by community education events                     1,944                 0           1,944              1,944 

    11 
      Number of complaints received attributable to the project                                   0              0                  0                  0

    12 
      Number of complaints referred for followup                                                  0              0                  0                  0

    13 
      Number of complaints that resulted in some action                                           0              0                  0                  0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0             $0                     $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0             $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0             $0                     $0
   15C        Other savings attributable to the project                                               $0                $0             $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0             $0                     $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0             $0                     $0




                                                                                                                                                 72       

A P P E N D       I X       ~     D 



                    Pennsylvania – Center for Advocacy for the Rights and Interests of the Elderly, Philadelphia
                                                                                             Total for                                          Change in
In operation since: July 1997                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               4             2                  2               0
    2        Number of new volunteers trained                                                        16               11                  5               -6
    3        Number of media events conducted                                                        24               15                  9               -6
    4        Number of community education events conducted                                          26               17                  9               -8
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           10                5                  5               0
    6        Number of group sessions for beneficiaries led by volunteers                           291              152            139                  -13
    7        Number of beneficiaries who attended group sessions led by volunteers               14,964           11,115           3,849              -7,266
    8        Number of one-on-one sessions held between beneficiaries and volunteers                991              520            471                  -49
   7+8       Total number of beneficiaries educated                                              15,955           11,635           4,320              -7315
    9        Estimated number of people reached by media events                               3,597,000         1,120,000     2,477,000            1,357,000
    10       Estimated number of people reached by community education events                     2,730            1,588           1,142               -446
    11       Number of complaints received attributable to the project                              193               99             94                   -5
    12       Number of complaints referred for followup                                                  0             0                  0               0
    13       Number of complaints that resulted in some action                                           1             1                  0               -1
    14       Medicare funds recovered attributable to the project                                    $0               $0             $0                  $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                  $0
   15B       Savings to beneficiaries attributable to the project                               $10,193           $1,673         $8,520              $6,847
   15C       Other savings attributable to the project                                               $0               $0             $0                  $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                       $10,193           $1,673         $8,520              $6,847
  14 + 15    Total savings attributable to the project                                          $10,193           $1,673         $8,520              $6,847




                                                                                                                                              73
A P P E N D        I X       ~     D 



                                           Puerto Rico – Governor's Office of Elderly Affairs, San Juan
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               3
             3
                  0                  -3 

     2
       Number of new volunteers trained                                                            3
             3
                  0                  -3 

     3
       Number of media events conducted                                                            5
             3
                  2
                 -1 

     4
       Number of community education events conducted                                          47 
              34 
            13
                    -21
                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               1              1
                                                                                                                         

                  0                  -1
     6
       Number of group sessions for beneficiaries led by volunteers                           118 
              70 
            48
                    -22 

     7
       Number of beneficiaries who attended group sessions led by volunteers                5,362             2,646            2,716                     70 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers              1,565               420 
          1,145                    725 

   7+8
       Total number of beneficiaries educated                                               6,927             3,066            3,861                    795 

     9
       Estimated number of people reached by media events                                 450,000           375,000          75,000             -300,000 

    10 
      Estimated number of people reached by community education events                     1,779             1,079             700
                -379 

    11 
      Number of complaints received attributable to the project                               56 
              23 
            33
                     10 

    12 
      Number of complaints referred for followup                                              47 
              19 
            28
                      9

    13 
      Number of complaints that resulted in some action                                       29 
               7
             22
                     15 

    14 
      Medicare funds recovered attributable to the project                                $2,368              $296          $2,072              $1,776
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                  $100              $100              $0                -$100
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                          $100              $100              $0                -$100 

  14 + 15 
   Total savings attributable to the project                                           $2,468              $396          $2,072              $1,676




                                                                                                                                                  74       

A P P E N D       I X       ~     D 



                                                     Rhode Island – Aging 2000, Inc., Providence
                                                                                             Total for                                          Change in
In operation since: July 1997                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               0             0                  0              0
    2        Number of new volunteers trained                                                            0             0                  0              0
    3        Number of media events conducted                                                     2,825            1,480           1,345               -135
    4        Number of community education events conducted                                          17               12                  5              -7
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               0             0                  0              0
    6        Number of group sessions for beneficiaries led by volunteers                            66               15             51                 36
    7        Number of beneficiaries who attended group sessions led by volunteers                4,068              430           3,638             3,208
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     0             0                  0              0
   7+8       Total number of beneficiaries educated                                               4,068              430           3,638              3208
    9        Estimated number of people reached by media events                              12,300,000         6,000,000     6,300,000            300,000
    10       Estimated number of people reached by community education events                    15,000            9,000           6,000             -3,000
    11       Number of complaints received attributable to the project                                   7             4                  3              -1
    12       Number of complaints referred for followup                                                  0             0                  0              0
    13       Number of complaints that resulted in some action                                           0             0                  0              0
    14       Medicare funds recovered attributable to the project                                    $0               $0             $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0             $0                 $0
   15C       Other savings attributable to the project                                               $0               $0             $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0             $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0             $0                 $0




                                                                                                                                              75
A P P E N D        I X       ~     D 



                                    South Carolina – Department of Health and Human Services, Columbia
                                                                                              Total for                                             Change in
In operation since: July 2000                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               5
             4
                  1
                 -3 

     2
       Number of new volunteers trained                                                            7
             4
                  3
                 -1 

     3
       Number of media events conducted                                                        55 
              16 
            39
                     23 

     4
       Number of community education events conducted                                         265 
             104 
           161
                     57 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               3              
0                  3
                  3
     6
       Number of group sessions for beneficiaries led by volunteers                           212 
               0             212
                    212 

     7
       Number of beneficiaries who attended group sessions led by volunteers               13,030                 0          13,030              13,030 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                130 
             127 
                 3
           -124 

   7+8
       Total number of beneficiaries educated                                              13,160               127 
        13,033               12906 

     9
       Estimated number of people reached by media events                                 410,990            46,800         364,190             317,390 

    10 
      Estimated number of people reached by community education events                    31,291            12,280          19,011               6,731
    11 
      Number of complaints received attributable to the project                                   4
             2
                  2
                  0

    12 
      Number of complaints referred for followup                                                  4
             2
                  2
                  0

    13 
      Number of complaints that resulted in some action                                           2
             0                   2
                  2

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  76       

A P P E N D        I X       ~     D 



                                      South Dakota – East River Legal Services Corporation, Sioux Falls
                                                                                              Total for                                             Change in
In operation since: July 2000                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               1
             0                   1
                  1

     2
       Number of new volunteers trained                                                        17 
               0              17
                     17 

     3
       Number of media events conducted                                                     3,078             3,070                   8
          -3,062 

     4
       Number of community education events conducted                                          31 
               9
             22
                     13 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           18                 
2
            16
                     14
     6
       Number of group sessions for beneficiaries led by volunteers                            14 
               5
                  9
                  4

     7
       Number of beneficiaries who attended group sessions led by volunteers                  274 
              77 
           197
                    120 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                538 
             177 
           361
                    184 

   7+8
       Total number of beneficiaries educated                                                 812 
             254 
           558
                    304 

     9
       Estimated number of people reached by media events                                 703,750           284,000         419,750             135,750 

    10 
      Estimated number of people reached by community education events                     5,239               630 
          4,609              3,979 

    11 
      Number of complaints received attributable to the project                               11 
               1
             10
                      9

    12 
      Number of complaints referred for followup                                                  1
             1
                  0                  -1 

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  77       

A P P E N D       I X       ~     D 



                                   Tennessee – Upper Cumberland Development District/AAA, Cookeville
                                                                                             Total for                                          Change in
In operation since: July 2001                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                           25                5             20                    15
    2        Number of new volunteers trained                                                       161               46            115                    69
    3        Number of media events conducted                                                       126               67             59                    -8
    4        Number of community education events conducted                                         364              159            205                    46
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           34               14             20                     6
    6        Number of group sessions for beneficiaries led by volunteers                           190               89            101                    12
    7        Number of beneficiaries who attended group sessions led by volunteers               15,240           10,539           4,701             -5,838
    8        Number of one-on-one sessions held between beneficiaries and volunteers             11,779            2,128           9,651             7,523
   7+8       Total number of beneficiaries educated                                              27,019           12,667         14,352               1685
    9        Estimated number of people reached by media events                               1,995,767         1,442,023       553,744            -888,279
    10       Estimated number of people reached by community education events                    44,630           31,318         13,312             -18,006
    11       Number of complaints received attributable to the project                               57               16             41                    25
    12       Number of complaints referred for followup                                              32                2             30                    28
    13       Number of complaints that resulted in some action                                           2             0                  2                2
    14       Medicare funds recovered attributable to the project                                    $0               $0             $0                    $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                    $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0             $0                    $0
   15C       Other savings attributable to the project                                               $0               $0             $0                    $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0             $0                    $0
  14 + 15    Total savings attributable to the project                                               $0               $0             $0                    $0




                                                                                                                                              78       

A P P E N D        I X       ~     D 



                                         Texas – Better Business Bureau Education Foundation, Houston
                                                                                              Total for                                             Change in
In operation since: July 2002                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           27 
               1
             26
                     25 

     2
       Number of new volunteers trained                                                       842 
              12 
           830
                    818 

     3
       Number of media events conducted                                                        10 
               4
                  6
                  2

     4
       Number of community education events conducted                                          52 
              36 
            16
                    -20
                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                          842                
12            830

                                                                                                                                        
                      818
     6
       Number of group sessions for beneficiaries led by volunteers                            60 
              23 
            37
                     14 

     7
       Number of beneficiaries who attended group sessions led by volunteers                2,319               716 
          1,603                    887 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                132 
             104 
            28
                    -76 

   7+8
       Total number of beneficiaries educated                                               2,451               820 
          1,631                    811 

     9
       Estimated number of people reached by media events                                 868,420            45,300         823,120             777,820 

    10 
      Estimated number of people reached by community education events                     5,711             1,659            4,052              2,393
    11 
      Number of complaints received attributable to the project                               59 
              50 
                 9
                -41 

    12 
      Number of complaints referred for followup                                              18 
               9
                  9
                  0

    13 
      Number of complaints that resulted in some action                                           9
             2
                  7
                  5

    14 
      Medicare funds recovered attributable to the project                                  $430               $79            $351                $272
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                             $430               $79            $351                $272




                                                                                                                                                  79       

A P P E N D        I X       ~     D 



                                      Texas – The National Hispanic Council on Aging, Washington, D.C.
                                                                                              Total for                                             Change in
In operation since: July 1999                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                          104 
               9
             95
                    86 

     2
       Number of new volunteers trained                                                       261 
             128 
           133
                      5

     3
       Number of media events conducted                                                     3,052                25 
          3,027               3,002 

     4
       Number of community education events conducted                                          38 
              23 
            15
                     -8
                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           28                 
8
            20
                    12
     6
       Number of group sessions for beneficiaries led by volunteers                           256 
             125 
           131
                      6

     7
       Number of beneficiaries who attended group sessions led by volunteers                7,401             3,692            3,709                    17 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                885 
             436 
           449
                    13 

   7+8
       Total number of beneficiaries educated                                               8,286             4,128            4,158                    30 

     9
       Estimated number of people reached by media events                               7,656,000          2,751,000      4,905,000             2,154,000       

    10 
      Estimated number of people reached by community education events                     4,895             2,613            2,282                -331 

    11 
      Number of complaints received attributable to the project                              816 
             436 
           380
                    -56 

    12 
      Number of complaints referred for followup                                              47 
              26 
            21
                     -5 

    13 
      Number of complaints that resulted in some action                                           8
             5
                  3
                 -2 

    14 
      Medicare funds recovered attributable to the project                               $16,174            $5,829         $10,345               $4,516
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                     $0
   15C        Other savings attributable to the project                                               $0                $0              $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                     $0 

  14 + 15 
   Total savings attributable to the project                                          $16,174            $5,829         $10,345               $4,516




                                                                                                                                                  80       

A P P E N D        I X       ~     D 



                                               Texas – Latino Education Project, Inc., Corpus Christi
                                                                                              Total for                                            Change in
In operation since: July 2005                                                                                  Jan. – June    July – Dec.
                                                                                               2005 
                                            last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           13 
               0             13
                     13 

     2
       Number of new volunteers trained                                                       126 
               0            126
                    126 

     3
       Number of media events conducted                                                            9
             0                  9
                  9

     4
       Number of community education events conducted                                              6
             0                  6
                  6

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               6              
0                 6
                  6
     6
       Number of group sessions for beneficiaries led by volunteers                                8
             0                  8
                  8

     7
       Number of beneficiaries who attended group sessions led by volunteers                  346 
               0            346
                    346 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 11 
               0             11
                     11 

   7+8
       Total number of beneficiaries educated                                                 357 
               0            357
                    357 

     9
       Estimated number of people reached by media events                                  26,200                 0         26,200              26,200 

    10 
      Estimated number of people reached by community education events                       588 
               0            588
                    588 

    11 
      Number of complaints received attributable to the project                                   3
             0                  3
                  3

    12 
      Number of complaints referred for followup                                                  3
             0                  3
                  3

    13 
      Number of complaints that resulted in some action                                           3
             0                  3
                  3

    14 
      Medicare funds recovered attributable to the project                                    $0                $0             $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0             $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0             $0                      $0
   15C        Other savings attributable to the project                                               $0                $0             $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0             $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0             $0                      $0




                                                                                                                                                 81       

A P P E N D        I X       ~     D 



                                                          Utah – Utah Legal Services, Salt Lake City
                                                                                              Total for                                       Change in
In operation since: July 1999                                                                                Jan. – June     July – Dec.
                                                                                               2005 
                                       last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                           94 
            48 
            46
                 -2 

     2
       Number of new volunteers trained                                                       417 
           212 
           205
                 -7 

     3
       Number of media events conducted                                                        57 
            14 
            43
                 29 

     4
       Number of community education events conducted                                         281 
            36 
           245
                209 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                          217              
92            125

                                                                                                                                      
                   33
     6
       Number of group sessions for beneficiaries led by volunteers                           186 
            45 
           141
                 96 

     7
       Number of beneficiaries who attended group sessions led by volunteers                9,704           1,149            8,555           7,406
     8
       Number of one-on-one sessions held between beneficiaries and volunteers             10,731           1,386            9,345          7,959 

   7+8
       Total number of beneficiaries educated                                              20,435           2,535          17,900           15365 

     9
       Estimated number of people reached by media events                                  33,711           8,919          24,792          15,873 

    10 
      Estimated number of people reached by community education events                    12,929           1,539          11,390           9,851
    11 
      Number of complaints received attributable to the project                              253 
            89 
           164
                 75 

    12 
      Number of complaints referred for followup                                              59 
            22 
            37
                 15 

    13 
      Number of complaints that resulted in some action                                       47 
             4
             43
                 39 

    14 
      Medicare funds recovered attributable to the project                                    $0              $0              $0                  $0
   15A        Medicaid funds recovered attributable to the project                                    $0              $0              $0                  $0
   15B        Savings to beneficiaries attributable to the project                                    $0              $0              $0                  $0
   15C        Other savings attributable to the project                                               $0              $0              $0                  $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0              $0              $0                  $0 

  14 + 15 
   Total savings attributable to the project                                               $0              $0              $0                  $0




                                                                                                                                            82       

A P P E N D        I X       ~     D 



                                                Vermont – Community of Vermont Elders, Montpelier
                                                                                              Total for                                             Change in
In operation since: July 2003                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               6
             2
                  4
                  2

     2
       Number of new volunteers trained                                                        37 
              19 
            18
                     -1 

     3
       Number of media events conducted                                                        44 
              36 
                 8
                -28 

     4
       Number of community education events conducted                                          75 
              10 
            65
                     55 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               3              
0                  3
                  3
     6
       Number of group sessions for beneficiaries led by volunteers                            12 
               0              12
                     12 

     7
       Number of beneficiaries who attended group sessions led by volunteers                  145 
               0             145
                    145 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                     0              0                   0                   0

   7+8
       Total number of beneficiaries educated                                                 145 
               0             145
                    145 

     9
       Estimated number of people reached by media events                                 260,335           202,000          58,335             -143,665 

    10 
      Estimated number of people reached by community education events                     2,822               320 
          2,502               2,182 

    11 
      Number of complaints received attributable to the project                                   8
             4
                  4
                  0

    12 
      Number of complaints referred for followup                                                  6
             1
                  5
                  4

    13 
      Number of complaints that resulted in some action                                           3
             0                   3
                  3

    14 
      Medicare funds recovered attributable to the project                                  $124                $0            $124                $124
   15A        Medicaid funds recovered attributable to the project                                $1,499                $0          $1,499              $1,499
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                        $1,499                $0          $1,499              $1,499 

  14 + 15 
   Total savings attributable to the project                                           $1,623                $0          $1,623              $1,623




                                                                                                                                                  83       

A P P E N D       I X       ~     D 



                                    Virginia – Virginia Association of Area Agencies on Aging, Richmond
                                                                                             Total for                                          Change in
In operation since: July 1999                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               1             1                  0              -1
    2        Number of new volunteers trained                                                            3             3                  0              -3
    3        Number of media events conducted                                                        71               34             37                  3
    4        Number of community education events conducted                                         593              223            370                147
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               0             0                  0              0
    6        Number of group sessions for beneficiaries led by volunteers                           113               28             85                 57
    7        Number of beneficiaries who attended group sessions led by volunteers                3,309              355           2,954             2,599
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     0             0                  0              0
   7+8       Total number of beneficiaries educated                                               3,309              355           2,954              2599
    9        Estimated number of people reached by media events                               2,561,553         1,388,533     1,173,020            -215,513
    10       Estimated number of people reached by community education events                    27,469           12,678         14,791              2,113
    11       Number of complaints received attributable to the project                               23               12             11                  -1
    12       Number of complaints referred for followup                                              13                8                  5              -3
    13       Number of complaints that resulted in some action                                           0             0                  0              0
    14       Medicare funds recovered attributable to the project                                    $0               $0             $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0             $0                 $0
   15C       Other savings attributable to the project                                               $0               $0             $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0             $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0             $0                 $0




                                                                                                                                              84
A P P E N D        I X       ~     D 



                                                    Virginia – Boat People S.O.S, Inc., Falls Church
                                                                                              Total for                                            Change in
In operation since: July 2005                                                                                  Jan. – June    July – Dec.
                                                                                               2005 
                                            last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               2
             0                  2
                  2

     2
       Number of new volunteers trained                                                        10 
               0             10
                     10 

     3
       Number of media events conducted                                                            5
             0                  5
                  5

     4
       Number of community education events conducted                                              2
             0                  2
                  2

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               4              
0                 4
                  4
     6
       Number of group sessions for beneficiaries led by volunteers                                0              0                  0                   0

     7
       Number of beneficiaries who attended group sessions led by volunteers                       0              0                  0                   0

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 24 
               0             24
                     24 

   7+8
       Total number of beneficiaries educated                                                  24 
               0             24
                     24 

     9
       Estimated number of people reached by media events                                     900 
               0            900
                    900 

    10 
      Estimated number of people reached by community education events                        95 
               0             95
                     95 

    11 
      Number of complaints received attributable to the project                                   0              0                  0                   0

    12 
      Number of complaints referred for followup                                                  0              0                  0                   0

    13 
      Number of complaints that resulted in some action                                           0              0                  0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0             $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0             $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0             $0                      $0
   15C        Other savings attributable to the project                                               $0                $0             $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0             $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0             $0                      $0




                                                                                                                                                 85       

A P P E N D       I X       ~     D 



                                            Virgin Islands – Senior Citizens Affairs, Charlotte Amalie
                                                                                             Total for                                         Change in
In operation since: July 2005                                                                                Jan. – June   July – Dec.
                                                                                              2005                                           last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               0             0                 0              0
    2        Number of new volunteers trained                                                            0             0                 0              0
    3        Number of media events conducted                                                            0             0                 0              0
    4        Number of community education events conducted                                              0             0                 0              0
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                               0             0                 0              0
    6        Number of group sessions for beneficiaries led by volunteers                                0             0                 0              0
    7        Number of beneficiaries who attended group sessions led by volunteers                       0             0                 0              0
    8        Number of one-on-one sessions held between beneficiaries and volunteers                     0             0                 0              0
   7+8       Total number of beneficiaries educated                                                      0             0                 0              0
    9        Estimated number of people reached by media events                                          0             0                 0              0
    10       Estimated number of people reached by community education events                            0             0                 0              0
    11       Number of complaints received attributable to the project                                   0             0                 0              0
    12       Number of complaints referred for followup                                                  0             0                 0              0
    13       Number of complaints that resulted in some action                                           0             0                 0              0
    14       Medicare funds recovered attributable to the project                                    $0               $0            $0                 $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0            $0                 $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0            $0                 $0
   15C       Other savings attributable to the project                                               $0               $0            $0                 $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0            $0                 $0
  14 + 15    Total savings attributable to the project                                               $0               $0            $0                 $0




                                                                                                                                             86
A P P E N D        I X       ~     D 



                                            Washington – Office of the Insurance Counselor, Olympia
                                                                                              Total for                                       Change in
In operation since: July 1999                                                                                Jan. – June     July – Dec.
                                                                                               2005 
                                       last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                          352 
           214 
           138
                  -76 

     2
       Number of new volunteers trained                                                       316 
            69 
           247
                  178 

     3
       Number of media events conducted                                                       504 
           125 
           379
                  254 

     4
       Number of community education events conducted                                         342 
            64 
           278
                  214 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                          316              
69            247

                                                                                                                                      
                    178
     6
       Number of group sessions for beneficiaries led by volunteers                           918 
           220 
           698
                  478 

     7
       Number of beneficiaries who attended group sessions led by volunteers               39,343           9,322          30,021            20,699
     8
       Number of one-on-one sessions held between beneficiaries and volunteers             24,186          16,252            7,934            -8,318 

   7+8
       Total number of beneficiaries educated                                              63,529          25,574          37,955             12381 

     9
       Estimated number of people reached by media events                               9,336,701        5,659,464      3,677,237         -1,982,227        

    10 
      Estimated number of people reached by community education events                    56,586          18,834          37,752            18,918
    11 
      Number of complaints received attributable to the project                              203 
            12 
           191
                  179 

    12 
      Number of complaints referred for followup                                             198 
             7
            191
                  184 

    13 
      Number of complaints that resulted in some action                                      195 
             4
            191
                  187 

    14 
      Medicare funds recovered attributable to the project                                    $0              $0              $0                    $0
   15A        Medicaid funds recovered attributable to the project                                    $0              $0              $0                    $0
   15B        Savings to beneficiaries attributable to the project                                    $0              $0              $0                    $0
   15C        Other savings attributable to the project                                               $0              $0              $0                    $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0              $0              $0                    $0 

  14 + 15 
   Total savings attributable to the project                                               $0              $0              $0                    $0




                                                                                                                                            87         

A P P E N D        I X       ~     D 



                                                   Washington – Multi-Service Center, Federal Way
                                                                                              Total for                                            Change in
In operation since: July 2005                                                                                  Jan. – June    July – Dec.
                                                                                               2005 
                                            last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               1
             0                  1
                  1

     2
       Number of new volunteers trained                                                        68 
               0             68
                     68 

     3
       Number of media events conducted                                                            1
             0                  1
                  1

     4
       Number of community education events conducted                                          20 
               0             20
                     20 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           68                 
0            68
                     68
     6
       Number of group sessions for beneficiaries led by volunteers                            15 
               0             15
                     15 

     7
       Number of beneficiaries who attended group sessions led by volunteers                  300 
               0            300
                    300 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                100 
               0            100
                    100 

   7+8
       Total number of beneficiaries educated                                                 400 
               0            400
                    400 

     9
       Estimated number of people reached by media events                                          0              0                  0                   0

    10 
      Estimated number of people reached by community education events                       450 
               0            450
                    450 

    11 
      Number of complaints received attributable to the project                               10 
               0             10
                     10 

    12 
      Number of complaints referred for followup                                              10 
               0             10
                     10 

    13 
      Number of complaints that resulted in some action                                           0              0                  0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0             $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0             $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0             $0                      $0
   15C        Other savings attributable to the project                                               $0                $0             $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0             $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0             $0                      $0




                                                                                                                                                 88       

A P P E N D        I X       ~     D 



                                                    West Virginia – AARP Foundation, Charleston
                                                                                              Total for                                             Change in
In operation since: July 2003                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               3
             2
                  1
                -1 

     2
       Number of new volunteers trained                                                        21 
              14 
                 7
                -7 

     3
       Number of media events conducted                                                        47 
              27 
            20
                    -7 

     4
       Number of community education events conducted                                         123 
              45 
            78
                    33 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           12                 
5
                 7
                 2
     6
       Number of group sessions for beneficiaries led by volunteers                            63 
              16 
            47
                    31 

     7
       Number of beneficiaries who attended group sessions led by volunteers                4,363               656 
          3,707              3,051 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 21 
               1
             20
                    19 

   7+8
       Total number of beneficiaries educated                                               4,384               657 
          3,727               3070 

     9
       Estimated number of people reached by media events                               3,866,552          1,448,151      2,418,401             970,250        

    10 
      Estimated number of people reached by community education events                    35,732            27,793            7,939             -19,854
    11 
      Number of complaints received attributable to the project                               14 
               7
                  7
                 0

    12 
      Number of complaints referred for followup                                                  4
             3
                  1
                -2 

    13 
      Number of complaints that resulted in some action                                           0              0                   0                  0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                     $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                     $0
   15C        Other savings attributable to the project                                               $0                $0              $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                     $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                     $0




                                                                                                                                                  89       

A P P E N D       I X       ~     D 



                                          Wisconsin – Coalition of Wisconsin Aging Groups, Madison
                                                                                             Total for                                          Change in
In operation since: July 1997                                                                                Jan. – June    July – Dec.
                                                                                              2005                                            last 6 months
                                         OUTPUT MEASURES

    1        Number of training sessions conducted to train new volunteers                               7             5                  2                  -3
    2        Number of new volunteers trained                                                       196               96            100                      4
    3        Number of media events conducted                                                     6,323            6,091            232                -5,859
    4        Number of community education events conducted                                         145               80             65                     -15
                                        OUTCOME MEASURES
             Number of volunteers who, for the first time, conducted activities to educate
    5        beneficiaries                                                                           13                7                  6                  -1
    6        Number of group sessions for beneficiaries led by volunteers                           112               44             68                      24
    7        Number of beneficiaries who attended group sessions led by volunteers                2,957            1,167           1,790                    623
    8        Number of one-on-one sessions held between beneficiaries and volunteers                 56               15             41                     26
   7+8       Total number of beneficiaries educated                                               3,013            1,182           1,831                    649
    9        Estimated number of people reached by media events                               1,856,409         1,577,345       279,064            -1,298,281
    10       Estimated number of people reached by community education events                    18,530            6,488         12,042                5,554
    11       Number of complaints received attributable to the project                               33               24                  9                 -15
    12       Number of complaints referred for followup                                                  7             5                  2                  -3
    13       Number of complaints that resulted in some action                                           6             4                  2                  -2
    14       Medicare funds recovered attributable to the project                                    $0               $0             $0                      $0
   15A       Medicaid funds recovered attributable to the project                                    $0               $0             $0                      $0
   15B       Savings to beneficiaries attributable to the project                                    $0               $0             $0                     $0
   15C       Other savings attributable to the project                                               $0               $0             $0                      $0
 TOTAL 15    Total Medicaid funds, beneficiary savings, and other savings                            $0               $0             $0                     $0
  14 + 15    Total savings attributable to the project                                               $0               $0             $0                      $0




                                                                                                                                              90        

A P P E N D        I X       ~     D 



                                         Wisconsin – Great Lakes Inter-Tribal Council, Lac du Flambeau
                                                                                              Total for                                             Change in
In operation since: July 1997                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               4
             2
                  2
                 0

     2
       Number of new volunteers trained                                                        64 
              25 
            39
                    14 

     3
       Number of media events conducted                                                        28 
               9
             19
                    10 

     4
       Number of community education events conducted                                          44 
              15 
            29
                    14 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                               1              
0                  1
                 1
     6
       Number of group sessions for beneficiaries led by volunteers                                3
             0                   3
                 3

     7
       Number of beneficiaries who attended group sessions led by volunteers                       4
             0                   4
                 4

     8
       Number of one-on-one sessions held between beneficiaries and volunteers                 31 
               0              31
                    31 

   7+8
       Total number of beneficiaries educated                                                  35 
               0              35
                    35 

     9
       Estimated number of people reached by media events                                  97,071               647 
        96,424              95,777 

    10 
      Estimated number of people reached by community education events                     2,646               660 
          1,986              1,326 

    11 
      Number of complaints received attributable to the project                                   0              0                   0                  0

    12 
      Number of complaints referred for followup                                                  0              0                   0                  0

    13 
      Number of complaints that resulted in some action                                           0              0                   0                  0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                     $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                     $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                     $0
   15C        Other savings attributable to the project                                               $0                $0              $0                     $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                     $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                     $0




                                                                                                                                                  91       

A P P E N D        I X       ~     D 



                                                 Wyoming – Wyoming Division on Aging, Cheyenne
                                                                                              Total for                                             Change in
In operation since: July 2000                                                                                  Jan. – June     July – Dec.
                                                                                               2005 
                                             last 6 months
                                          OUTPUT MEASURES

     1
       Number of training sessions conducted to train new volunteers                               5
             1
                  4
                  3

     2
       Number of new volunteers trained                                                        82 
              37 
            45
                      8

     3
       Number of media events conducted                                                        18 
               3
             15
                     12 

     4
       Number of community education events conducted                                         136 
              36 
           100
                     64 

                                         OUTCOME MEASURES
              Number of volunteers who, for the first time, conducted activities to educate
     5
       beneficiaries                                                                           17                 
5
            12
                      7

     6
       Number of group sessions for beneficiaries led by volunteers                            27 
               7
             20
                     13 

     7
       Number of beneficiaries who attended group sessions led by volunteers                  295 
              45 
           250
                    205 

     8
       Number of one-on-one sessions held between beneficiaries and volunteers              3,699               815 
          2,884               2,069 

   7+8
       Total number of beneficiaries educated                                               3,994               860 
          3,134               2274 

     9
       Estimated number of people reached by media events                                 101,500           100,000            1,500             -98,500 

    10 
      Estimated number of people reached by community education events                    15,050            15,000               50
            -14,950 

    11 
      Number of complaints received attributable to the project                               35 
              25 
            10
                    -15 

    12 
      Number of complaints referred for followup                                                  6
             6
                  0                  -6 

    13 
      Number of complaints that resulted in some action                                           0              0                   0                   0

    14 
      Medicare funds recovered attributable to the project                                    $0                $0              $0                      $0
   15A        Medicaid funds recovered attributable to the project                                    $0                $0              $0                      $0
   15B        Savings to beneficiaries attributable to the project                                    $0                $0              $0                      $0
   15C        Other savings attributable to the project                                               $0                $0              $0                      $0 

 TOTAL 15 
   Total Medicaid funds, beneficiary savings, and other savings                            $0                $0              $0                      $0 

  14 + 15 
   Total savings attributable to the project                                               $0                $0              $0                      $0




                                                                                                                                                  92       

